<html>
<title> - CORPS OF ENGINEERS BUDGET FOR FISCAL YEAR 2002</title>
<body><pre>[Senate Hearing 107-319]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-319
 
                       CORPS OF ENGINEERS BUDGET 
                          FOR FISCAL YEAR 2002
=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                   ON

THE PROPOSED BUDGET OF THE PROGRAMS OF THE U.S. ARMY CORPS OF ENGINEERS 
                          FOR FISCAL YEAR 2002

                               __________

                             APRIL 26, 2001


                               __________

  Printed for the use of the Committee on Environment and Public Works




                       U. S. GOVERNMENT PRINTING OFFICE
78-070                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      one hundred seventh congress
                             first session
                   BOB SMITH, New Hampshire, Chairman
             HARRY REID, Nevada, Ranking Democratic Member
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
JAMES M. INHOFE, Oklahoma            BOB GRAHAM, Florida
CHRISTOPHER S. BOND, Missouri        JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
MICHAEL D. CRAPO, Idaho              RON WYDEN, Oregon
LINCOLN CHAFEE, Rhode Island         THOMAS R. CARPER, Delaware
ROBERT F. BENNETT, Utah              HILLARY RODHAM CLINTON, New York
BEN NIGHTHORSE CAMPBELL, Colorado    JON S. CORZINE, New Jersey
                Dave Conover, Republican Staff Director
                Eric Washburn, Democratic Staff Director
                              ----------                              

           Subcommittee on Transportation and Infrastructure

                  JAMES M. INHOFE, Oklahoma, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
CHRISTOPHER S. BOND, Missouri        BOB GRAHAM, Florida
GEORGE V. VOINOVICH, Ohio            JOSEPH I. LIEBERMAN, Connecticut
LINCOLN CHAFEE, Rhode Island         BARBARA BOXER, California
                                     RON WYDEN, Oregon

                                  (II)





  
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             APRIL 26, 2001
                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........    11
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
Voinovich, Hon. George, U.S. Senator from the State of Ohio......     2

                               WITNESSES

Flowers, Lt. Gen. Robert B., Chief of Engineers, U.S. Army Corps 
  of Engineers...................................................     8
    Prepared statement...........................................    26
    Responses to additional questions from:
        Senator Inhofe...........................................    29
        Senator Wyden............................................    31
Tornblom, Hon. Claudia, Deputy Assistant Secretary of the Army 
  (Management and Budget)........................................     6
    Prepared statement...........................................    21


             CORPS OF ENGINEERS BUDGET FOR FISCAL YEAR 2002

                              ----------                              


                        THURSDAY, APRIL 26, 2001

                               U.S. Senate,
         Committee on Environment and Public Works,
         Subcommittee on Transportation and Infrastructure,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:55 a.m. in room 
628, Senate Dirksen Building, Hon. James M. Inhofe (chairman of 
the subcommittee) presiding.
    Present: Senators Inhofe, Voinovich and Baucus.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Senator Baucus is not here, but he is en 
route and told us to go ahead.
    Today, the subcommittee will receive testimony from the 
Deputy Assistant of the Army for Management and Budget, Claudia 
Tornblom and Lt. Gen. Robert B. Flowers, Chief of Engineers, 
U.S. Army Corps of Engineers regarding the fiscal year 2002 
request from the Corps of Engineers.
    As a fiscal conservative, I appreciate the efforts of the 
Administration to rein in Government spending. Each program in 
the Federal budget must undergo careful scrutiny with an eye 
toward less spending as opposed to more spending. Certainly, 
the Corps budget is no exception, and it would appear the 
Administration has done just that with this budget request.
    While I will reserve judgment in the appropriate funding 
level for the 2002 Corps Civil Works Program until after I have 
heard from our witnesses, I will admit some concerns with the 
amount. A 14 percent decrease over fiscal year 2001 enacted 
levels appears to me to be unrealistic given the existing 
backlog. That is especially true when you consider the flooding 
that is taking place right now in the Mississippi River in the 
Midwest. The proposed request would cut flood control along the 
Mississippi River by 20 percent over 2001 enacted levels and 
almost 10 percent less than the 2001 requested level.
    I recognize that Congress has a habit of increasing the 
level of funding for the Corps' programs above the President's 
request and I expect this year will be no different. Perhaps 
that is a part of the calculation when developing the request. 
My concern is it is this type of gamesmanship that results in 
unnecessary spending. It would be far better for Congress to be 
presented with a realistic budget request up front than to be 
subject to endless upward revisions.
    In short, I think we are making it too easy for us to spend 
more money because it would appear you have sent us a request 
that does not meet the need. I hope I am wrong and have merely 
misunderstood your proposal.
    There are so many things out there now that should be 
funded, should be begun. We will have a chance to talk about 
some of these things with the General. I look forward to your 
testimony.
    [The prepared statement of Senator Inhofe follows:]

    Statement of Hon. James M. Inhofe, U.S. Senator from the State 
                              of Oklahoma

    Today the subcommittee will receive testimony from Deputy 
Assistant Secretary of the Army for Management and Budget, 
Claudia L. Tornblom and Lt. General Robert B. Flowers, Chief of 
Engineers, U.S. Army Corps of Engineers regarding the fiscal 
year 2002 budget request for the U.S. Army Corps of Engineers.
    As a fiscal conservative I appreciate the efforts of the 
Bush Administration to reign in Government spending. Each 
program in the Federal budget must undergo careful scrutiny 
with an eye toward less spending as opposed to more spending. 
Certainly, the Corps budget is no exception and it would appear 
that the Administration has done just that with this budget 
request. While I will reserve judgment on the appropriate 
funding level for the fiscal year 2002 Corps Civil Works 
program until after I have heard from our witnesses, I will 
admit to some concerns with the amount. A 14 percent decrease 
over fiscal year 2001 enacted levels appears to me to be 
unrealistic given the existing backlog.
    This is especially true when we consider the flooding that 
is taking place right now along the Mississippi River in the 
Midwest. The proposed request would cut flood control along the 
Mississippi River by 20 percent from fiscal year 2001 enacted 
levels and is 10 percent less than the fiscal year 2001 
requested level. I recognize that Congress has a habit of 
increasing the level of funding for the Corps program above the 
President's request and suspect that this year it will be no 
different . . . perhaps that is part of the calculation when 
developing the budget request. My concern is that it is this 
type of ``gamesmanship'' that results in unnecessary spending. 
I believe it would be far better for Congress to be presented 
with a realistic budget request up front then one subject to 
endless upward revisions. In short, you are making it too easy 
for us to spend more money because it would appear you have 
sent us a request that does not meet the need. I hope I am 
wrong and have merely misunderstood your proposal.
    With that said, I am anxious to hear the explanation of our 
witnesses of the fiscal year 2002 budget request.

    Senator Inhofe. Senator Voinovich, will you have an opening 
statement?
    Senator Voinovich. Yes, I do.

        OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, 
              U.S. SENATOR FROM THE STATE OF OHIO

    Senator Voinovich. As chairman of this subcommittee during 
the 106th Congress, I was pleased to have an opportunity to 
help develop the Water Resources Development Act of 1999 and 
especially pleased to use that experience in drafting the Water 
Resources Development Act of 2000, including provision to 
restore the Everglades.
    Authorizations are very important and are the first part of 
the process of developing and maintaining our Nation's water 
infrastructure. Equally important is having a liquid level of 
funding to construct as well as operate and maintain the water 
resource projects Congress authorizes.
    Under the Bush Administration's fiscal year 2002 proposal, 
overall funding increases were 4 percent, although the Army 
Corps of Engineers faces significant cuts. I note that the 
budget funds no new starts and that there is only 60 percent of 
the optimum funding level needed for projects to move forward 
on schedule. For instance, the Corps construction budget is 
nearly $100 million less, a 23 percent cut in the level 
appropriated for fiscal year 2001.
    Further, the Corps budget for Operation and Maintenance is 
$150 million less than the level appropriated for fiscal year 
2001, an 8 percent cut. This cut increases the backlog of 
critical maintenance needs from $415 million in fiscal year 
2001 to $835 million in fiscal year 2002. That is a 100 percent 
increase. Overall in the President's budget, the Corps will 
sustain a reduction of 14 percent in fiscal year 2002 as 
compared to fiscal year 2001.
    As you know, this Nation has an aging water resources 
infrastructure. If we continue to ignore the upkeep, the 
deterioration of our locks and dams, our flood control and 
storm damage projects for navigation channels will continue and 
we will risk disruptions in waterborne commerce, and decreases 
in protection from floods and damages to the environment.
    I think it is up to us to ensure that the operation and 
funding levels are adequate and efficiently allocated to 
priority needs. Since I have been a member of this committee, I 
have been concerned about the overall Corps infrastructure 
investment requirement estimate of $38 billion. There are 
already more water resources projects authorized for 
construction than can be completed in any timely and efficient 
construction schedule.
    At the current levels of general funding, it would take 25 
years to complete the active projects and the backlog, not even 
considering additional project authorizations that were 
included in WRDA 2000, let alone future WRDA bills. There are a 
number of reasons why the Corps has such a backlog and most 
significant is the decreasing Federal investment in water 
resources infrastructure. We need to make those unmet needs a 
priority. I believe we need to spend our Federal resources on 
the right things, and among the right things that are not 
receiving adequate funding are many of the worthy projects 
authorized by this subcommittee. We need to sit down and make 
some hard choices about where to allocate taxpayer money, where 
we want to increase spending, where we want to make cuts or we 
want to flat fund.
    For example, for the National Institutes of Health, the 
President included a generous increase in the amount of money 
the NIH will receive in its budget, boosting NIH spending to 
$2.8 billion in fiscal year 2002, almost a 14 percent increase. 
Then the Senate added another $700 million to NIH funding. 
Therefore, under the Senate's plan, NIH funding will rise by 
over 17 percent.
    Do I think we should spend money on important health 
research? By golly, I do, but what we need to remember and what 
is missing around this place is the true cost of what we spend 
in the Federal budget is not just a dollar figure, it is what 
you give up or what you could have purchased with that money. 
Economists call the concept ``opportunity costs.'' When the 
Senate thinks about spending money on one thing, we need to 
recognize that we are giving up the ability to use that money 
for other worthy purposes.
    Another thing we need to remember in figuring opportunity 
costs is the fact that we have a number of unmet Federal needs, 
needs that are a Federal responsibility. One of the things we 
talked about is school construction. Not our responsibility, it 
is a State and local responsibility. In my State we have 
undergone the most active, expensive, rebuilding of a school 
program. That is a State responsibility. Now the Federal 
Government wants to get into school construction and we cannot 
provide the money for infrastructure needs, take care of the 
Army Corps needs and some of those things. It doesn't make 
sense.
    We have to look at the way we deal with our money. We 
increase the budget over the President's proposal by 4 percent. 
That is a 333 percent increase over what the President proposed 
and not a dime of it was involved in any of these things that 
have come before this subcommittee. We cannot continue to 
increase money for good things.
    I know the subcommittee members who are not here, all of us 
have things we would like to do and nobody wants to say you 
can't increase education spending 20 percent and not have 
something else suffer. I am saying it is time for us as a 
subcommittee to face some of the responsibilities that we have 
in terms of some of the realities and not keep putting these 
things in the drawer, hoping they will go away. Some of our 
colleagues say we have to spend more money and the answer is, 
let's go from 8 percent to 12 percent, or let's do what we did 
last time, 14.5 percent for non-defense discretionary spending 
over the budget and didn't do diddly in terms of the problems 
we have in this committee.
    I am exercised about this and we need to communicate this 
to our colleagues.
    [The prepared statement of Senator Voinovich follows:]

  Statement of Hon. George V. Voinovich, U.S. Senator from the State 
                                of Ohio

    Thank you, Mr. Chairman. As chairman of this subcommittee 
during the 106th Congress, I was pleased to have had the 
opportunity to help develop the Water Resources Development Act 
of 1999, and especially pleased to use that experience in 
drafting the Water Resources Development Act of 2000 including 
a provision to protect the Everglades.
    Authorizations are a very important first part of the 
process of developing and maintaining our Nation's water 
resources infrastructure. Equally important is having an 
adequate level of funding to construct as well as operate and 
maintain the water resources projects Congress authorizes. 
Under the Bush Administration's fiscal year 2002 budget 
proposal, overall funding increases by 4 percent, although the 
Army Corps of Engineers faces significant cuts. I note that the 
budget funds no new starts, and provides only 60 percent of the 
optimum funding level needed for projects to move forward at an 
efficient schedule. For instance, the Corps' construction 
budget is nearly $400 million less--a 23 percent cut--than the 
level appropriated for fiscal year 2001. Further, the Corps' 
budget for operation and maintenance is over $150 million less 
than the level appropriated for fiscal year 2001--an 8 percent 
cut. This cut increases the backlog of critical maintenance 
needs from $415 million in fiscal year 2001, to $835 million in 
fiscal year 2002. That's a staggering 100 percent increase!
    Overall, under the President's budget, the Corps will 
sustain a reduction of 14 percent in fiscal year 2002 as 
compared to fiscal year 2001. Mr. Chairman, as you know, this 
Nation has an aging national water resources infrastructure. If 
we continue to ignore the upkeep, the deterioration of our 
locks and dams, our flood and storm damage control projects and 
our navigation channels will continue, and we will risk 
disruptions in waterborne commerce, decreased protection 
against floods and damages to the environment. It is up to 
Congress to ensure that operation and maintenance funding 
levels are adequate and efficiently allocated to priority 
needs.
    Mr. Chairman, since I have been a member of this 
subcommittee, I have been concerned about the Corps overall 
infrastructure investment requirement estimate of $38 billion. 
There are already more water resources projects authorized for 
construction that can be completed in any timely and efficient 
construction schedule. At the current low levels of general 
construction appropriations, it would take 25 years to complete 
the active projects in the backlog without even considering 
additional project authorizations that were included in WRDA 
2000, let alone future WRDAs.
    There are a number of reasons why the Corps has such a 
large backlog. The most significant reason is the decreasing 
Federal investment in water resources infrastructure over the 
last several decades. At the same time, the Corps' mission 
continues to expand into areas like environmental restoration. 
I strongly believe that Congress and the Administration need to 
develop a strategy to address the Corps' growing backlog. This 
strategy should give paramount consideration to effective 
management of the backlog to assure that it only includes 
needed projects that are economically justified, 
environmentally acceptable, and supported by willing and 
financially capable non-Federal sponsors.
    Senator Graham and I recently wrote to General Flowers 
asking the Corps to develop and implement a process of regular 
review for existing Corps projects and to make recommendations 
about the Corps' future involvement in those projects.
    To determine the extent of unmet needs throughout our 
Nation, I have asked the General Accounting Office (GAO) to 
conduct a study on the unmet infrastructure needs of our 
Nation. This includes such items as: highways, mass transit, 
airports, drinking water supply and wastewater treatment, 
public buildings, water resources (flood control and 
navigation), and hydropower generating facilities. Addressing 
these unmet needs should be a priority in the Senate, and I 
intend to make it so.
    I believe we need to spend our Federal resources on the 
right things, and among the right things that are not receiving 
adequate funding are many of the worthy projects authorized by 
this committee.
    We need to sit down and make some hard choices about where 
to allocate the taxpayers' money, where we want to increase 
spending, where we want to make cuts or where we want to flat-
fund.
    Take the National Institutes of Health, for example. The 
President has included a generous increase in the amount of 
money that the NIH will receive in his budget, boosting NIH 
spending by $2.8 billion in fiscal year 2002--a 13.8 percent 
increase.
    The Senate added an additional $700 million in NIH funding. 
Therefore, under the Senate's plan, NIH funding would rise by 
17.2 percent over last year.
    Do I think we should spend money on important health 
research? Absolutely. But, how much is enough?
    We need to remember that the true cost of what we spend in 
the Federal budget is not just the dollar figure, it is what 
you give up, or what you could have purchased with that money. 
Economists call the concept ``opportunity cost.'' When the 
Senate thinks about spending money on one thing, we need to 
recognize that we are giving up the ability to use the money 
for other worthy purposes.
    Another thing we need to remember in figuring opportunity 
costs is the fact that we have a number of unmet Federal 
needs--needs that are a Federal responsibility, and which we 
should address as part of our full and balanced approach to the 
Federal budget.
    Do we spend Federal dollars on things like school 
construction, which is a State and local responsibility, or do 
we prevent flood and storm damage from ravaging people's 
property?
    These are the kinds of spending decisions that we, as 
elected officials, have to make. I realize that in virtually 
any situation, the easy decision would be to simply increase 
spending.
    However, it is that logic that has caused us to spend well-
beyond the rate of inflation over the past few years. In my 
view, we need to stiffen our ``backbones'' and bring an end to 
Congress' spending habit. Families need to carefully budget 
their resources, and so do cities and States. So, too, should 
the Federal Government.
    The American people want us to make hard choices regarding 
our budget priorities. I believe it should be this committee's 
responsibility to make sure that the projects we have 
authorized get funded.
    We must convince our colleagues about the seriousness of 
the Corps' construction and operation and maintenance backlog 
and that the necessary resources for the Corps to adequately 
meet its current responsibilities must be provided.
    I appreciate and support the fact that the President 
restrains the growth of Federal spending in his 2002 budget 
proposal. He made hard choices that needed to be made. However, 
I would have placed greater emphasis on funding an important 
Federal responsibility such as those undertaken by the Corps. 
With an overall cut of 14 percent in the Corps' fiscal year 
2002 budget, we will not be able to fulfill these 
responsibilities. I'm sure many of my colleagues would agree 
with me.
    Again, I don't believe that we should simply ``tack on'' 
new spending as some would like to do, and which the Senate did 
in the budget resolution, increasing spending by 8 percent of 
last year's level.
    To counter rampant spending, we should re-establish our 
priorities, and shift funds away from clearly non-Federal 
responsibilities, or, in the alternative, from programs that 
are clearly ``over-funded'' in order to more evenly distribute 
funds to cover a broader range of unmet needs.
    Absent such action, I would be interested to hear if 
today's witness could possibly shed some light on how the Corps 
can address its backlog while simultaneously absorbing the 
reductions proposed in its budget request.
    I look forward to the testimony of General Flowers and Ms. 
Tornblom and their responses to any questions that may follow.
    Thank you, Mr. Chairman.

    Senator Inhofe. We are going to wait and not hear from our 
witnesses until Senator Baucus gets here, at least for a few 
minutes. I have to comment on some of the things you said. I 
agree.
    One of the questions I am going to be asking is concerning 
the Montgomery Point Lock and Dam. We have been working with 
that for so many years and to have that slide at this point, it 
is going to end up costing considerably more--I don't think 
anyone questions this--in the long run by not meeting the 
construction schedule that we had set initially.
    This is one of those projects that if you don't get on it 
right away and show and demonstrate to the potential carriers 
out there that we are going to correct that problem, they are 
not going to make the long term decisions that will get the 
maximum use out of the waterways.
    I don't know if you were here when I mentioned that it just 
seems to me we get in the habit of depending on the upgrades, 
so we don't have a realistic budget to start with. Maybe that 
is my suspicion and others don't share it, but I suspect that 
might be the case.
    Senator Voinovich. Sometimes I think they do that. They 
low-ball it and they know we will make it up so they can add on 
to the spending.
    Senator Inhofe. We will go ahead and start with our 
witnesses. We will start then with Ms. Tornblom. Your entire 
statement will be entered into the record. Try to keep your 
comments a bit abbreviated.

STATEMENT OF HON. CLAUDIA TORNBLOM, DEPUTY ASSISTANT SECRETARY 
              OF THE ARMY (MANAGEMENT AND BUDGET)

    Ms. Tornblom. Good morning.
    I appreciate the opportunity to testify today on the 
President's Budget for the Civil Works Program of the Army 
Corps of Engineers for fiscal year 2002.
    Accompanying me today are Lt. Gen. Robert Flowers, the 50th 
Chief of Engineers, and Mr. Rob Vining, Chief of the Civil 
Works Programs Management Division.
    The 2002 Civil Works budget reflects the President's 
overall goals to slow the growth of Federal spending, provide 
for a tax cut, and reduce the national debt, while providing 
greater emphasis on education and protecting Social Security. 
The budget for Civil Works requires appropriations of $3.9 
billion. In addition to these appropriations, about $514 
million will be contributed by Bonneville Power Administration, 
non-Federal cost-sharing sponsors, and other sources. In 
combination, these funds will support a total Civil Works 
Program for 2002 of $4.4 billion.
    The budget emphasizes the principal Civil Works missions of 
commercial navigation, flood damage reduction and environmental 
restoration. As you have already mentioned, the program 
currently has a significant active construction backlog which 
is about $40 billion. Of this amount, $26 billion represents 
requirements to complete projects currently budgeted for either 
construction or pre-construction engineering and design. In 
order to address this backlog, available funding in 2002 is 
directed toward the construction of continuing projects. As a 
result, no new project construction starts or project-specific 
study starts are budgeted.
    Although no project specific studies are budgeted, the 
budget does propose two new national studies that will provide 
information needed by the Army and the Chief of Engineers to 
assess potential changes in Civil Works policies and 
procedures. The first of these new studies, which was 
authorized in Section 223 of the Water Resources Development 
Act of 2000, is a 12 year program to monitor the economic and 
environmental results of up to five projects constructed by the 
Corps of Engineers.
    The second new national study was authorized by this 
committee in the Water Resources Development Act of 1999, 
Section 215. This study will assess the extent, causes and 
impacts of shoreline erosion on the coastal shores of the 
United States.
    The 2002 budget presents a new Administration policy toward 
shore protection projects that involve beach nourishment. For 
initial sand placement of these projects, the Administration 
proposes no change in the currently authorized 65 percent 
Federal, 35 percent non-Federal cost sharing. However, for 
subsequent periodic renourishment of such projects, the 
Administration will seek a 65 percent non-Federal share, 
reducing the Federal share to 35 percent. This policy would 
apply to all renourishment work funded in 2002 and beyond.
    Until now, beach nourishment projects started since 1995 
have not received budgetary support. However, due to this 
policy change, the budget includes funding for projects with 
2002 requirements regardless of when they were started. 
Altogether, $82 million is budgeted this year for beach 
nourishment projects.
    For the Mississippi River and Tributaries Project, the 
budget targets funds to high priority flood damage reduction 
projects, which are on the mainstem of the Mississippi River 
and in the Atchafalaya River Basin in Louisiana.
    In the Operation and Maintenance Program, the budget gives 
priority among port and harbor and inland waterway activities 
to those that support higher commercial navigation use. Funds 
for the operation and maintenance of shallow-draft harbors are 
limited to $47 million. Among shallow-draft harbors, the 
subsistence harbors in isolated communities and harbors that 
involve relatively greater use for commercial cargo and fishing 
are given priority, whereas harbors that are essentially 
recreational in nature are deemphasized.
    The budget includes $42 million for operation of low 
commercial-use inland waterways, or waterways with less than 1 
billion ton-miles of traffic per year. Funds for maintenance of 
low commercial-use inland waterways are limited to $25 million 
for maintenance dredging. Again, these funds are targeted at 
the waterway segments with relatively greater commercial use.
    Recreation user fees will be increased in order to raise 
2002 receipts by about $10 million to an estimated total of $44 
million. This is the first step of a 4-year effort to increase 
recreation user fees by a total of $25 million. About $4 
million of this total will be realized by increasing fees under 
current authority. In addition, we plan to transmit proposed 
legislation to Congress to authorize certain changes in current 
fee collection authorities. All of the increase in fees would 
be available without further appropriation for operation, 
maintenance, and improvement of Corps recreation facilities.
    In the Army Secretariat we are working closely with the 
Chief of Engineers to identify opportunities to strengthen the 
Civil Works planning process. In addition, as indicated in the 
President's Budget Blueprint, the Army is considering options 
for strengthening the ability of the Office of the Assistant 
Secretary for Civil Works to ensure appropriate policy 
oversight of project planning. Already, General Flowers and I 
have agreed to restore the past practice of concurrent vertical 
involvement of all organizational levels, including the Office 
of the Assistant Secretary, at critical steps in the 
formulation of projects.
    The Army Corps of Engineers is the premiere Government 
agency for water resources project planning, construction and 
operation, for protection of the Nation's waters and wetlands, 
and for emergency response. As a decentralized, watershed based 
organization with strong engineering, environmental and 
research capabilities, the Corps is well positioned to continue 
developing integrated solutions to complex, modern water 
resources problems.
    With the Corps' strong emphasis on technical and analytical 
approaches to these problems, the Army Civil Works Program is a 
wise investment in the Nation's future.
    Thank you. This concludes my statement.
    Senator Inhofe. Thank you.
    General Flowers.

 STATEMENT OF LT. GEN. ROBERT B. FLOWERS, CHIEF OF ENGINEERS, 
                  U.S. ARMY CORPS OF ENGINEERS

    General Flowers. Thanks for inviting me to come before you 
again in support of the President's fiscal year 2002 budget for 
the Civil Works Program. The prepared statement we have 
furnished, I ask you make it a part of the record.
    Senator Inhofe. Without objection.
    General Flowers. Two days ago, the Mississippi River 
reached a flood crest at Davenport, IA. Their homegrown levee 
held back the flood waters from the snow melt and the heavy 
spring rains that have brought floods to the upper Midwest. I 
was in Davenport, IA on Sunday and met local officials together 
with residents and volunteers as they engaged in a heroic 
effort to keep flood damage at a minimum. Their actions are an 
affirmation of the spirit of that community.
    I am proud to say our Army Corps of Engineers provided 
assistance for the flood fighting effort in Davenport and other 
communities large and small. Corps men and women have been 
helping to keep high water from overwhelming homes, farms, 
businesses and livelihoods. I would like to describe two of our 
heroes.
    Michelle Schneider and Terry Zien of our St. Paul District 
were checking the main tributaries of the Minnesota River on 
the afternoon of April 7. After a night of heavy rain, they 
were checking the flood waters and observed a large volume on 
the Pomme de Terre River upstream of Appleton, Minnesota. They 
immediately notified city officials who had not yet begun 
flood-fighting preparations. The city quickly began sandbagging 
operations and was able to keep ahead of the flood waters. The 
river rose 8 feet overnight. Thanks to their rapid response, 
damage to the community was averted.
    You can be proud of these public servants. They are 150 
strong and have been working around the clock to control the 
effects of high water on the Red, the Minnesota and the Upper 
Mississippi. Their efforts and expertise are paying off for the 
citizens of hometown America.
    While we stayed on course in carrying out our missions, we 
have been surrounded by controversies the past year. When I 
became Chief last October, I found an organization that as on 
solid ground. Our very capable men and women have soldiered on 
to provide sound solutions to our Nation's water resources 
problems while we have had our credibility assailed and our 
integrity challenged.
    When I testified before you a few weeks ago, I offered my 
reactions to the investigation of our Army Inspector General 
and the review of the National Academy of Sciences on our Upper 
Mississippi Navigation Study and the whistleblower allegations. 
I commented that it was unfortunate the Inspector General did 
not have the benefit of the National Academy of Sciences review 
available when his report was published. I believe he would 
have taken an entirely different view of the proceedings.
    My view is this: If the Inspector General had had that 
report, he would have found good, decent and honorable people 
coming to grips with both a flawed economic model and 
insufficient data. Since then, I have met with a wide spectrum 
of Americans with different interests and viewpoints and all 
have thanked me for speaking up for the quality and the 
integrity of the scientific and engineering services that we 
offer our Nation.
    Let me assure you again, the Corps has sound systematic 
processes that consistently provide decisionmakers, the 
Congress, the Administration and the American people with solid 
recommendations based on sound engineering, scientific fact and 
objectivity. Our intent is to achieve a synergy between 
economic objectives and environmental values.
    I submit that the Corps program is subject to more 
Executive Branch and Congressional oversight than any other 
Federal activity. Corps projects are separately authorized in a 
bill passed by Congress and signed into law by the President. 
Every project is reviewed annually by both the Administration 
and the Congress as part of the appropriations process. Each is 
also subjected to a benefit cost ratio that is unique among 
Federal agencies.
    I think we receive this scrutiny because of our profound 
impact on the Nation's well-being. For example, U.S. deep water 
ports, coastal and inland harbors and waterways move $2.3 
billion tons of domestic and foreign commerce annually. Flood 
and shore protection projects prevent $22 billion in damages 
each year. Over 120,000 acres of wetlands, aquatic and flood 
plain ecosystems have been added to the national habitat since 
1998.
    The Nation's investment in the Corps of Engineers produces 
a 26 percent annual rate of return and has put $30 billion in 
tax revenues and savings into the Treasury. These statistics 
confirm my belief that the American people have invested wisely 
in our Nation's investment in water resources infrastructure.
    Your Corps of Engineers has responded to our Nation's call 
for over 2 centuries, from the time we first explored and 
mapped the western frontier to this day when we are helping to 
save lives and protect property. We have sought to improve the 
quality of life for our citizens.
    Today, however, our population has increased and our 
infrastructure has aged. Our investment in water resources has 
decreased. The Corps today has a $40 billion backlog of 
authorized, but unfunded, new capital investments that, when 
implemented, will provide benefits to the American people. Our 
critical maintenance backlog amounts to over $800 million. As 
the infrastructure ages, the costs escalate.
    Have we as a society, and as a Nation, paid enough 
attention to the future? I say no. In the report card recently 
released by the American Society of Civil Engineers, the 
Nation's navigable waterway infrastructure received a D+. We 
also heard that same answer from 1,300 people, a cross section 
of concerned stakeholders from all walks of life in all areas 
of the country when we went out and listened to their concerns 
last year.
    These sessions raised important issues. Examples include 
the need to make improvements to our water transportation 
system, the need to manage our flood plains better, and the 
need to restore and protect the environment.
    In closing, I am firmly convinced our Army Corps of 
Engineers has a critical contribution to make in solving our 
country's problems today and in the future. Ours is an 
organization that has built flexibility into its structure to 
seek out the best economic, environmental and social solutions 
to our Nation's toughest jobs. We strive to bring synergy to 
problem-solving. I am proud that America looks to us when it 
needs the best.
    That concludes my remarks. We are prepared to respond to 
your questions.
    Senator Inhofe. Thank you.
    We have been joined by our ranking member, Senator Baucus, 
and I would recognize him now for an opening statement.

             OPENING STATEMENT OF HON. MAX BAUCUS, 
             U.S. SENATOR FROM THE STATE OF MONTANA

    Senator Baucus. I thank the witnesses and thank General 
Flowers. It is not the first time we have seen him and I doubt 
it will be the last.
    I am concerned about the Administration's budget request 
for the Corps of Engineers. I think, frankly, it is way too 
low. In fact, as you all know, the budget has been slashed by 
about 14 percent in the President's proposal. That is at a time 
when the Corps is facing lots of challenges, a construction 
backlog of over $40 billion to name one.
    In addition, the Administration's budget, I must say, has 
hit my State of Montana very hard and it has hit where it 
hurts. Basically, the eastern part of Montana. Those of you may 
not know a lot about Montana, but let me tell you eastern 
Montana is a part of the State where we don't have near as many 
people as in the western part of the State and recreation on 
the Ft. Peck Reservoir and the Ft. Peck Dam is key, critical to 
the economy in eastern Montana, but for some agriculture and 
even that is getting a bit shaky at times. We desperately need 
help and the Administration's budget does not help us in any 
way whatsoever. We receive no funding under the 
Administration's budget request for the Ft. Peck Reservoir 
projects.
    I emphasized at the last hearing we had with you, General 
Flowers, that recreation is really everything to the economy 
around the Ft. Peck Lake. One project in particular is the fish 
hatchery that was authorized by the Water Resources Development 
Act of 2000. It is very popular. I have to tell you whenever I 
am home, even in Helena several hundred miles away from Ft. 
Peck, people walk up to me and say, ``Max, thanks so much for 
that fish hatchery.'' You won't believe, on a per capita basis, 
I probably get more compliments on that fish hatchery than on 
any other project in the State and I'll bet you more than any 
other Senator receives on any project in his or her own State. 
It is incredible. I emphasize on a per capita basis because 
there aren't a lot of people in eastern Montana. It is 
extremely popular and will bring huge environmental benefits, 
and economic benefits to Montana, environmental--improving fish 
stocks--because that is a wonderful fishing opportunity there, 
help for the endangered sturgeon and basic recreation. It is a 
wonderful opportunity for those people.
    Private individuals are searching for ways to raise money 
for hatchery design, but they are waiting for the Corps to come 
through with its money. As you know, there are no dollars 
proposed in this budget for the fish hatchery.
    A few weeks back, this subcommittee explored some 
criticisms about the Corps management and the Corps alleged 
bias toward large projects. I believe at that time, General, 
you were very sincere in your expressed efforts to respond to 
the criticisms that had been leveled at the Corps. We even held 
out hope there would be real reform in the way the Corps does 
business.
    I must say my enthusiasm has dampened a bit basically 
because I don't think this budget allows the Corps to achieve 
the reforms it would like. You have to have resources. 
Sometimes that is not popular to say, but you have to have 
resources to get the job done. You don't want to waste 
resources, but you have to have resources.
    I look forward to hearing the testimony of the General and 
other witnesses and I hope they can persuade me that the 
President's budget will allow the Corps to faithfully respond 
to some of the criticisms that have been waged, legitimate ones 
I might add, to help ensure the integrity of the Civil Works 
planning process.
    I also have concerns about the Administration's proposal to 
substantially increase recreation user fees. I don't know how 
that is going to work. I know how it is going to work in one 
sense, I don't know how it is going to work in another. I worry 
about how it will be implemented and I must say again, when you 
talk about places like eastern Montana, Montana per capita 
income, wage per capita income is 50th in the Nation. That is 
statewide. Think of those people in eastern Montana. It is a 
lot lower and they have to pay user fees? There is just no way. 
It's not going to work.
    We are a huge country, there are projects in New Orleans, 
all over this country, that are much different. There is 
dredging, there are barges, locks and so forth, but there are 
also fish hatcheries in eastern Montana. I just want you to 
realize we are a very varied, complex country. We are not all 
locks and dams along the Mississippi and we are lots of other 
things in this country that are as valid, as important and 
don't cost as much. I deeply regret they are not included in 
this budget.
    In short, General, as usual, I want to get these things 
solved, but we need some help.
    Thank you.
    [The prepared statement of Senator Baucus follows:]

          Statement of Hon. Max Baucus, U.S. Senator from the 
                            State of Montana

    Thank you, Mr. Chairman. I would like to thank our two 
witnesses for attending this hearing today. I know this is a 
busy time for you. I have a lot of concerns about the 
Administration's Budget Request for the Army Corps of Engineers 
Civil Works program. The President has slashed the Corps' 
budget by 14 percent, at a time when the Corps is facing a 
construction backlog of over $40 billion and has been asked to 
explore serious institutional reforms. Not only that, but the 
Administration's budget has hit my State pretty hard, and hit 
it where it hurts--the recreation economy of Central and 
Eastern Montana. Several authorized projects in my State, 
mostly around Fort Peck Reservoir, will receive no funding 
under the Administration's budget request.
    As I emphasized at the last hearing that General Flowers 
attended, recreation is everything to the economy of my State 
around Ft. Peck Lake. One project in particular that was 
authorized by the Water Resources and Development Act of 2000 
provides for a Fort Peck Fish Hatchery. This project is hugely 
popular because it will bring many environmental and economic 
benefits to my State, including improved fish stocks, help for 
the endangered pallid sturgeon, and economic opportunities for 
Central and Eastern Montana communities.. Private individuals, 
in cooperation with the State of Montana, have already begun 
laying plans for the hatchery, and are even now searching for 
ways to raise money for a hatchery design until the Army Corps 
comes through with funding. However, no funding has been 
proposed.
    A few weeks back, this committee explored some serious 
criticisms about the Corps' management practices and the Corps' 
alleged bias toward large construction projects. I believe at 
that time General Flowers was sincere in his expressed desire 
to respond to the criticisms leveled at the Corps. He held out 
the hope that there would be real reform in the way the Corps 
does business, that we would see independent review of large 
Corps projects, that we could see more public participation in 
the development of projects.
    However, I don't hold out a lot of hope that the 
President's Budget Request will allow the Corps to achieve real 
reform because I don't think the budget gives them the 
resources to do it. I look forward to hearing the testimony of 
the witnesses on this issue, and I hope they can persuade me 
that the President's budget will allow the Corps to faithfully 
respond to criticisms, and will ensure the integrity of the 
Civil Works planning process.
    I also have concerns about the Administration's proposal to 
substantially increase recreation user fees. I have concerns 
about how such a proposal will be implemented, and what the 
impact increased fees will have on the residents of my State. 
In short, I question the ability of the Corps to carry out the 
reforms it has been asked to undertake, attend to its huge 
backlog of projects, and meet its many other responsibilities 
to the citizens of my State and the country.
    Again, I would like to thank General Flowers and Claudia 
Tornblom for being here. I look forward to exploring these and 
other issues with them at today's hearing.

    Senator Inhofe. Thank you, Senator Baucus.
    Mr. Vining, I assume you are here for support?
    Mr. Vining. Yes, sir.
    Senator Inhofe. I am going to reverse the order of the 
questions because of a couple of things Senator Baucus said and 
I do agree with him. In my opening, I said essentially the same 
thing about the inadequacy of parts of this budget and with the 
things out there, the reforms that are needed and the projects 
that are ongoing, do you really believe this budget is 
adequate?
    Ms. Tornblom. This budget needs to be considered in the 
context of the overall government-wide budget of the President 
of the United States. It is in that context that the budget can 
be understood as directing the limited resources that were 
available, in light of the President's other priorities, 
directing them to the highest priority missions of the Corps of 
Engineers, those being flood damage reduction, commercial 
navigation and environmental restoration.
    Senator Inhofe. That didn't really answer the question. As 
far as the construction programs underway right now and the 
schedules we have had, do you feel it adequately keeps us on 
those schedules?
    Ms. Tornblom. I can certainly confirm that it does not keep 
them on schedule. The budget provides approximately 57 percent 
of what would be needed to keep the ongoing construction 
projects on schedule.
    Senator Inhofe. General Flowers, I mentioned this to you 
briefly before and some of this Senator Baucus said, and it is 
certainly true in Oklahoma. As I go around and have our town 
meetings, it is very difficult for me to be near any of our 
Corps lakes without having a lot of the complaints concerning 
upcoming increases in the camping fees. I have calculated in 
just one of our areas what I think it would be if I understand 
correctly. We go from $11 to $17.
    I am going to make an effort to try to keep from having to 
raise these fees. I think this is probably a good forum in 
which I can make that statement. I would like to get a response 
from you concerning these fees if you would.
    General Flowers. Yes, sir. I am probably the last person to 
favor raising the fees, even though an argument could be made 
about market value of the services provided, but I won't do 
that. What I will tell you is we are very interested in trying 
to modernize the services at our recreation parks. We have 
attempted in the past to budget those and it has not been 
permitted.
    In part what was happening with the increase in user fees 
was an attempt to try and see to some of that modernization 
with a commitment that the increase in fees would be plowed 
back into the facilities. I think what we were trying to seek 
is some way to improve those facilities.
    I will give you an example. Last week I was visiting the 
Northwest and I visited Hood Park by the confluence of the 
Snake and Columbia Rivers. That park was probably put in back 
in the 1950s.
    Senator Inhofe. Where is that?
    General Flowers. It is in the State of Washington near the 
confluence of the Snake and Columbia Rivers, near the town of 
Pasco.
    The park was built probably 30 or 40 years ago and 20 amp 
was the standard in those days for electrical plug-in. Today 
with more modern appliances and rigs, you need substantially 
more. In an attempt to keep service available for people, I saw 
a junction box there that had a coat hanger stuck on top of it. 
I was wondering what that was all about and they told me that's 
where they put a drip bottle so that when they plug in new 
rigs, the water can drip and keep the box cool. We have to do 
better than that. Not only do I question the safety of that, 
but it is our park rangers and others trying to provide a 
service to the public and keep things open and available, we 
have to do a better job in seeing to those. I think the attempt 
to try and increase the fees was to try and shed some light on 
that and perhaps get some funds to help modernize.
    Senator Inhofe. We have had fee increases and I want you to 
know we would be concerned about that.
    I have several things to get into, including Montgomery 
Point Lock and Dam which has been a concern for some time. We 
are all concerned about the energy crisis we have right now. 
I'd like to have you tell us how your projects would relate to 
the energy crisis and how it would affect it?
    General Flowers. I think most of our effects would be in 
the area of the hydropower we provide. Is it possible for us to 
provide more power? Yes, sir, it is. In a number of projects, 
space has been left to add additional capacity, so that's one 
thing that could be done. I think the effectiveness of our 
generating systems would be improved if we could do something 
about the maintenance backlog.
    While in the Northwest, I visited the Bonneville 
powerhouse, the first one constructed on the Columbia River. 
They are replacing the generators in the original powerhouse 
built in the 1930s. That project was scheduled for completion 
in about 2003 and because of the budget, it has been stretched 
and I think will now complete in about 2009 if my memory serves 
me correctly. Those new generators provide a fairly significant 
increase in efficiency and in the amount of power that can be 
generated. They also are an environmental benefit in that the 
new design of the turbines reduces cavitation and improves fish 
survival of any fish that pass through those turbines.
    Hydroelectric power is used to provide peak power and that 
peak power is probably the most expensive.
    Ms. Tornblom. In addition what the Chief has stated, the 
Corps regulatory staff, particularly in California, has been 
very actively working with the State government and the 
regional representatives of the other Federal agencies to 
expedite the permitting process so that those sites being 
considered by the State and private developers can be very 
quickly passed through the regulatory process and get approved 
for construction.
    Senator Inhofe. I had in mind also the predictability of 
barging capacity.
    General Flowers. That's a great point. What happens when 
you have to delay projects that are under construction, I'll 
give you a typical example. Marmet Lock and Dam in West 
Virginia, I learned from Senator Byrd, has more lockages than 
any other lock and dam in the system. The prime commodity moved 
through there is coal that is moving to power plants, so if you 
improve the efficiency of your system to carry, then you 
improve the efficiency to supply those critical plants for 
power supply.
    Senator Inhofe. Thank you.
    Senator Voinovich.
    Senator Voinovich. I concur with the chairman, and Senator 
Baucus, you didn't have a chance to hear my remarks prior, but 
the overall 23 percent cut in the appropriated fiscal year 
2001, the 8 percent cut in terms of maintenance is not 
acceptable. I really think you have an obligation, General, and 
the Secretary of the Army has a responsibility to come back 
with some realistic numbers in terms of getting the job done 
that needs to be done.
    The money that has been appropriated in the past hasn't 
been enough and now we are cutting back from that. The least 
you should have received is a cost-of-living increase in your 
budget. This is ridiculous. As I pointed out, we just added 4 
percent spending increase over what the President proposed, and 
that's a 333 percent increase and we didn't do anything about 
some of these needs and other unmet needs of the Federal 
Government. Yet, we increased NIH spending astronomically, we 
are going to increase spending for education astronomically. 
Education is not fundamentally a responsibility of the Federal 
Government; it is basically a State and local responsibility. 
We are not doing the things the Federal Government is supposed 
to be doing.
    I think it is the obligation of the Administration and you 
ought to take it back to Mr. Daniels and I will call him and 
tell him and Mr. O'Keefe that there are certain Federal 
responsibilities and local and State responsibilities. Our 
fundamental job is to take care of our Federal 
responsibilities.
    I think the least you should ask for is a cost-of-living 
increase, the least.
    Ms. Tornblom. I am sure the new Secretary of the Army and 
Assistant Secretary for Civil Works will be working within the 
Administration to take up these matters as soon as they come on 
board.
    Senator Voinovich. I am relatively new to this business and 
Senators are always talking about projects in their State and 
ordinarily I don't do that, I talk about the big picture of 
things. As Governor and as Senator, we have worked very hard on 
a floodwall for Columbus, OH, it's a big deal. We know one of 
these days we are going to have a big flood and that wall is 
not finished yet. We have asked for some $11 million and I 
think you allocated $6 million for that floodwall.
    I have talked with Secretary Westphal about the dredging of 
harbors in the Great Lakes, the water level is at its lowest in 
30 or 40 years. It is almost impossible for some of our 
commercial vessels to get in and we need more dredging to be 
done. There is nothing in this budget to take care of that 
problem.
    Senator Baucus talks about recreation. One of the things 
I've tried to get the Corps to do is look at the economic 
impact recreation has on States. Recreation in the Great Lakes 
is enormous and has more to do with our economy than commercial 
travel by some of our lake carriers. Yet, it is not a priority 
in terms of this issue of dredging. I'd like to know what we 
are going to be able to do about this dredging problem we have 
in the Great Lakes in moving not only commercial boats and some 
of our recreational vehicles in and out of the harbors. I want 
an answer, what are you going to do about it? What does this 
budget do to take care of that situation?
    I have a steel mill in Ohio, LTV Steel that we are trying 
to keep alive, a big deal. They are trying to get loans from 
the Federal, State and so on, but they have a big problem and 
that is they have to get their big boat in to bring their 
taconite to the facility. We need to get an answer from the 
Corps of Engineers. We are not asking for money from the Corps, 
but they are asking for permission to dredge that and put the 
stuff that is dredged into a facility the Corps has. We have 
been trying to get that done now for several weeks and haven't 
gotten an answer. I want an answer, I'd like to know. All I 
need is permission for them to go ahead and dredge this 
material and put it in one of your disposal sites.
    General Flowers. Let me respond about LTV Steel. That is a 
critical need. There are some issues with respect to making 
available the existing combined disposal facility, there is a 
process to get that approval. We received the package to 
support that a week ago. Two days ago, the letter was signed 
over to the Secretary's office to get the Secretary of the 
Army's approval. We are anticipating that, which would allow 
the dredging to proceed as the need has identified in the month 
of May.
    Ms. Tornblom. That letter has not arrived at my desk yet. I 
will make sure that I pay attention to it as soon as I get back 
this afternoon.
    Senator Voinovich. I appreciate it.
    Senator Inhofe. Senator Baucus.
    Senator Baucus. I am curious about why we got left out? 
What were the priorities?
    General Flowers. The priorities were to continue work that 
had been begun, albeit at a reduced level. As the Secretary 
testified, it's about 57 percent of what we would like, an 
average. Some are better, some are a little lower. We made a 
conscious decision to try not to terminate any projects and 
proceed with projects already underway. What that means is 
there are no new starts. So if it falls into a category of 
something that would have to be started this year, it was not 
put in the budget.
    I am in absolute agreement with you that projects like the 
hatchery at Ft. Peck are fantastic projects and we sure would 
like to do them, but we are going to do the absolute best job 
we can with the money that has been made available.
    Senator Baucus. Have you given much thought to Lewis and 
Clark Bicentennial?
    General Flowers. Yes, sir and part of my trip last week 
through the Northwest was to visit several places. That was why 
I was at Hood Park. It is near one of the campgrounds we 
anticipate between the years of the Bicentennial 2003 to 2006, 
a substantial increase in visitation to a lot of the places in 
that part of the country. I am very concerned about our ability 
to handle the public that will come there for that celebration. 
I am trying to find ways to get those facilities up to snuff.
    Senator Baucus. I agree, there will be a lot of people. It 
is going to be an important event. My sense is there is not 
adequate planning, not adequate preparations for it. Have you 
read Steve Ambrose's book?
    General Flowers. ``Undaunted Courage''?
    Senator Baucus. Yes.
    General Flowers. Yes.
    Senator Voinovich. And Senator, I'm halfway through it. I 
read it 15 minutes every night before I go to sleep and it's 
wonderful.
    Ms. Tornblom. One of the things we have highlighted in the 
budget this year as a new line item, although there was a minor 
level of ongoing activity prior to this, was the funding to pay 
for a Lewis and Clark coordinator, the hours, expenses and 
activities of that person who is located in the Corps' Omaha 
District.
    Senator Baucus. When are we going to see some actual 
projects commemorating the Bicentennial? When are we going to 
see some recommendations by the Administration to the Corps?
    Ms. Tornblom. I am not aware of any proposals by the 
Administration. We did have in past years a recreation 
modernization plan, but that did not receive funding when the 
past Administration proposed it.
    Senator Baucus. I made my points in my statement basically. 
I am very concerned that it is a bit weak, I am really 
distressed at the budget levels. I don't want to get into 
political argument here and I won't, but I heard you say, Ms. 
Tornblom, that this request is consistent with the President's 
other priorities and I do think there is another priority which 
is causing this and that is the tax cut, the proposed $1.6 
trillion tax cut. Money is not free and it is a zero sum game. 
You have to budget these things and if there is no money, there 
is no money.
    I know the chairman may disagree with me, but I hope the 
budget resolution that comes back is more realistic with 
respect to the size of the tax cut so that some of these items 
can be more appropriately considered. America has many, many 
needs. One of them is getting the surpluses back in the hands 
of the people, that is clear, but we also have needs like the 
ones we are addressing here today.
    In the Corps backlogged projects, as the Senator from Ohio 
said, we have a national responsibility here and the Corps fits 
into that category as an agency with national responsibilities 
compared to some other spending that we do engage in around 
here.
    I hope you send the message back with whatever influence 
you have that if the Administration starts to negotiate the 
budget resolution, maybe save a bit for the Corps.
    Senator Inhofe. I do disagree, but we all have different 
philosophies. When you look at what is the function of 
Government, the infrastructure is way up there. I was talking 
to a prominent Senator yesterday who was not aware that we are 
navigable in Oklahoma, yet with the billions of dollars of cost 
in which my father-in-law was very involved, it may have been 
considered to be a boondoggle at the time, but the investment 
is there and we have certain things necessary to keep that up. 
One is the Montgomery Point Lock and Dam and I do want to talk 
about that.
    Toward the end of your statement, General Flowers, you 
talked about these listening sessions. The Corps has had some 
PR problems. I'd like to know if that was what you were using 
these for, and if so, are you getting things from them? How are 
you going to convey that to Congress?
    General Flowers. We have put the listening sessions almost 
in toto on our website, we have created a brochure that 
captures an executive summary of what we heard in the listening 
sessions and did take that information and included it in a 
strategic plan for our Civil Works function. That plan is 
currently being reviewed at the Secretariat and at OMB. That is 
how we would propose to communicate that.
    Senator Inhofe. Montgomery Point Lock and Dam, we have been 
dealing with this for some time. The delays built into this 
with this year's budget are of great concern to me for one 
major reason. When you go upstream and have people making 
decisions that are not decisions as to what are they going to 
do this year, but making barging decisions that are done years 
in advance, there has to be an assurance they know by some 
year, whether 2002, 2003 or 2004, that it is going to be able 
to handle the draft capacity in order to get those goods 
shipped back and forth.
    Without that certainty, decisions are going to be made to 
use other forms, maybe expensive forms, of transportation. I've 
been told as far as the Montgomery Point Lock and Dam, we're 
only asking for about $18 million. That is less than half of 
what is really going to be necessary to get it done and keep it 
on schedule.
    Also I've been shown and had demonstrated to me that if we 
don't do it, it is going to end up costing considerably more by 
lagging the construction schedule we had. I would like to have 
you address that specific project.
    General Flowers. Your assessment is absolutely accurate. As 
part of the desire to keep all ongoing projects ongoing, we 
have had to cut back on the funding of all projects to include 
Montgomery Point Lock and Dam. For all project benefits 
foregone, we are probably looking at about $5.8 billion and 
another $.5 billion in costs which would be mostly inflation, 
so it is over $6 billion in costs on all projects.
    Senator Inhofe. When you say all projects, you are talking 
about all ongoing projects like Montgomery?
    General Flowers. Yes, all projects and about 10 months 
delay on average for each project. Specifically, on Montgomery 
Point Lock and Dam, in the budget is $18 million. With that 
it's going to delay completion, probably if the budget 
continues that way, year to year until December 2005.
    Senator Inhofe. As opposed to when?
    General Flowers. As opposed to December 2003. It will delay 
that project 2 years. If we were working at max capacity on 
Motgomery Point, we would need $60 million in fiscal year 2002 
and the impact if we delay is about $42 million benefits lost.
    Senator Inhofe. That is my point. That is why I agree with 
both the other Senators. We don't always share the same 
philosophy. Economically, we are better off to go ahead and get 
these things done. This has a far greater cost than just the 
direct cost you mentioned, because it has the cost of those 
people who are planning to use that improvement in order to 
ensure they are able to carry their goods in the future.
    I am going to be working pretty hard to see if we can't get 
that accelerated on that specifically.
    In the Tulsa District, recently the office, in response to 
concerns raised by the Fish and Wildlife Service, decided to 
stop issuing dock permits on Corps lakes. Is this in that 
particular district, or is this happening all over? And kind of 
give me the reasons as you understand them. and if not, you can 
answer it for the record. I'd like to get some response as to 
why this is being done and the reasons behind it.
    Mr. Vining. Let me respond in part and then provide a more 
complete answer for the record.
    [The information follows:]
 dock facility permits at corps of engineers projects in tulsa district
    A moratorium has been placed on the issuance of new shoreline 
management permits for private boat docks at eight Tulsa District Corps 
of Engineers projects. A moratorium period of 30 to 60 days is a normal 
part of the periodic review process to receive public review and 
comment on shoreline management plans every 5 years. The moratorium was 
extended, however, to allow further coordination with the United States 
Fish and Wildlife Service and two Oklahoma State agencies concerning 
cumulative environment impacts of the entire shoreline management 
program. This moratorium is scheduled to be lifted before the end of 
May 2001, thus allowing resumption of issuance of permits for private 
boat docks. Permit requests for boat docks in new areas not currently 
zoned for this type of use will still be held in abeyance until the 
implications of cumulative environmental impacts are more thoroughly 
evaluated.

    For the lakes in question, there is a plan that provides 
for a programmatic approval of permits for dock facilities that 
is periodically updated every 5 years. There have been issues 
raised particularly by the State Historic Preservation Office, 
also Fish and Wildlife Service. We are working through those 
now and anticipate to have that resolved by May, which will 
allow the permit activities to resume in the area presently 
covered by those plans.
    Our normal update of those plans would be next year, which 
would allow for an expansion of the permit activities perhaps 
beyond what is presently contained in the geographic scope.
    I could give you a very specific answer for the record.
    Senator Inhofe. I would like that. When would that be?
    Mr. Vining. We could have that next week.
    Senator Inhofe. Candy Lake, are you familiar with that?
    Mr. Vining. I am happy to talk about Candy Lake.
    Senator Inhofe. For those not familiar, this is a problem 
where we are trying to return land to original owners. However, 
because of the problem we are having with NEPA and the cultural 
artifacts, we seem to have gotten into a standstill that I'd 
like to work ourselves out of. I would like the feeling of the 
Corps as to how we can resolve this problem.
    Mr. Vining. As you know, we own the land around Candy Lake 
so we are required to go through NEPA process on that. Whether 
that is an environmental assessment or an EIS is going to have 
a significant impact on the schedule. Our hope is we can get 
through with an environmental assessment on that and can give 
you a specific schedule at that time within 6 months.
    Senator Inhofe. How about Kaw Lake? That's a situation 
where a town has relocated and the two wells are a nominal 
amount, but in terms of who is responsible, I'd like to get 
some dialog there.
    General Flowers. In general, I think what we can do to help 
Kaw Lake falls probably in the realm of providing technical 
assistance to try and assess and help out with the issues and 
problems there. If it's going to involve any subsequent work or 
construction, following that we would probably need some 
authority's help.
    Senator Inhofe. For the record, you might provide a little 
more detail as to what type of authority that would be.
    [The information follows:]
                 kaw city, ok, water supply facilities
    Construction of water supply and related facilities near Kaw Lake 
for Kaw City, OK, are considered to be a non-Federal responsibility by 
the Administration. Consequently, bill language and construction, 
general funding of $1,500,000 would be required to authorize and direct 
the Corps of Engineers to design and construct this project. Bill 
language similar to the following would be needed: ``Using the 
$1,500,000 provided herein, the Secretary of the Army, acting through 
the Chief of Engineers, is directed to design and construct new wells 
near Sarge Creek in Oklahoma, that are capable of producing 500 acre-
feet of water annually, and to design and construct a pipeline from the 
wells near Sarge Creek to Kaw City, OK at full Federal expense.''

    I also chair the Senate Armed Services Readiness Committee, 
so between those two, we do have the total jurisdiction so we 
will be seeing a lot of each other. I am looking forward to 
working with you.
    We know there have been some problems in the past--and PR 
problems. We want to work through those things. I think we had 
a good start with our last hearing. On these items I mentioned 
today, four of them, I want to become very active on those. One 
of those was the campsite increase. I am a little more familiar 
with that than most, because in the real world for 30 years, I 
was somewhat involved in the private sector in that type of 
recreation.
    When Senator Baucus talks about the type of people who use 
these facilities, a lot of them are not real wealthy people. 
These are facilities, most of them, built for a totally 
different reason, but this is an auxiliary benefit that has a 
huge benefit to the local areas in terms of tourist attraction.
    I do want to specifically talk to you and your staff about 
what we can do with this budget to keep from having to raise 
those fees. I have strong feelings about that.
    Is there any question or statement the three of you would 
like to make specifically concerning the budget, but about 
anything else also?
    General Flowers. I'd like to close by telling you, with 
your connection with Armed Services, we in the Corps are 
engaged in about 93 countries around the world providing, in 
part, technical assistance to help shape the peace, some water 
resources help in places like sub-Saharan Africa, providing 
technical assistance in trying to get power plants restarted in 
Nigeria and Kenya.
    One of the side benefits that is not very well understood 
by the American public, and maybe not by most members of the 
Armed Forces, is the tremendous benefit our Nation derives from 
having the U.S. Army Corps of Engineers involved in Civil Works 
activities. We are unique in the world in that, and this Nation 
is able to leverage that expertise every day, particularly when 
we have to transition from peace to conflict. It gives us a 
distinct advantage. No other nation can do what we can do, 
because the U.S. Army Corps of Engineers can leverage this 
expertise when it needs to help our men and women in uniform 
around the world.
    Senator Inhofe. I appreciate that. You mentioned Nigeria 
and I have been active in a mission in West Africa for a number 
of years from Nigeria, Gabon, Togo, Congo, Rwanda and Burundi 
and I agree with you. I'd like to look at some of the things 
you are doing in that general area.
    Other comments?
    Ms. Tornblom. We appreciate the opportunity to present the 
President's budget to you today.
    Senator Inhofe. Thank you. Let's see how this ends.
    We are adjourned.
    [Whereupon, at 10:42 a.m., the subcommittee was adjourned, 
to reconvene at the call of the chair.]
    [Additional materials submitted for the record follows:]
 Statement of Hon. Claudia L. Tornblom, Deputy Assistant Secretary of 
                    the Army (Management and Budget)
                              introduction
    Mr. Chairman and distinguished members of the subcommittee: Thank 
you for the opportunity to testify before this subcommittee of the 
Appropriations Committee and to present the President's budget for the 
Civil Works program of the Army Corps of Engineers for fiscal year 
2002.
    Accompanying me this morning are Lt. Gen. Robert B. Flowers, Chief 
of Engineers; Major General Hans A. Van Winkle, Director of Civil 
Works; and Mr. Robert F. Vining, Chief of the Programs Management 
Division, Directorate of Civil Works. My statement provides an overview 
of the fiscal year 2002 Army Civil Works program and discusses 
highlights of the program.
               fiscal year 2002 army civil works program
    The Army Corps of Engineers is the premier Federal agency for 
managing water resources project planning, construction, and operation; 
protecting the Nation's waters and wetlands; and responding to 
emergencies. As a decentralized, watershed-based organization with 
strong engineering, environmental, and research capabilities, the Corps 
is very well positioned to continue developing integrated solutions to 
complex, modern water resources problems. To carry out the Civil Works 
program, the Corps works in partnerships with other Federal agencies, 
States, and local communities, including the non-Federal cost-sharing 
sponsors for studies and projects.
    The President's fiscal year 2002 budget for the Army Civil Works 
program includes $3.9 billion in appropriations. Of the $3.9 billion, 
about $765 million will be derived from the Harbor Maintenance Trust 
Fund, the Inland Waterways Trust Fund, and other sources offsetting 
general revenues. In addition to the $3.9 billion, about $514 million 
will be contributed by the Bonneville Power Administration, non-Federal 
cost sharing partners, and other sources supplementing appropriated 
funds. Details are presented in Table A.
    The budget reflects the President's overall goals to slow the 
growth of Federal spending, provide for a tax cut, and reduce the 
national debt, while providing greater emphasis on education and 
protecting social security. The President is committed to a collegial, 
bipartisan approach to working with Congress. We look forward to 
working with you throughout your deliberations on the President's 
fiscal year 2002 budget for the Army Civil Works program.
      highlights of the fiscal year 2002 army civil works program
    The fiscal year 2002 Army Civil Works program includes a number of 
proposals and initiatives, such as targeting funds on continuing work 
with high priority outputs, increasing user fees for recreation 
services, and modifying the cost sharing for periodic renourishment at 
shore protection projects.
    The budget emphasizes the principal Civil Works missions of 
commercial navigation, flood damage reduction, and environmental 
restoration. The budget also provides funds for storm damage reduction 
studies and projects and for multiple purpose studies and projects that 
include other outputs such as hydroelectric power, water supply, and 
recreation. No funds are provided to continue additional missions that, 
in the view of the Administration, should remain the responsibility of 
non-Federal interests. In addition, the budget does not fund individual 
studies and projects that are inconsistent with established policies 
governing the applicable missions.
Construction Backlog
    There is a construction backlog of about $40 billion, including 
about $26 billion to complete ongoing regular construction projects, 
about $6 billion to complete ongoing Mississippi River and Tributaries 
construction projects, and about $8 billion for projects in 
Preconstruction Engineering and Design. Available funding is directed 
toward construction of the continuing projects, and no new project 
construction starts or project-specific study starts are budgeted.
Shore Protection Policy
    The fiscal year 2002 budget presents a new Administration policy 
toward shore protection projects that involve periodic sand 
renourishment. Until now, beach nourishment projects started since 
fiscal year 1995 have not received budgetary support. However, ongoing 
shore protection projects that involve periodic renourishment and that 
are otherwise consistent with established policies are supported in the 
fiscal year 2002 budget, no matter when these projects were started, 
provided that non-Federal interests agree to pay 65 percent of the 
costs of renourishment work funded in fiscal year 2002 or thereafter. 
This increased non-Federal cost share reflects the substantial economic 
benefits that these projects provide to State and local economies and 
ensures that the Federal Government's long-term nourishment obligations 
do not crowd out other important funding needs. The existing cost 
sharing for initial sand nourishment, which is 65 percent Federal and 
35 percent non-Federal in most cases, is not affected by the new 
policy.
    The new 65 percent non-Federal cost share would apply to all 
periodic renourishment costs for which the Federal share is financed 
with funds allocated to the project after fiscal year 2001. The Army 
Corps of Engineers will develop amendments to the project cooperation 
agreements to establish the new 65 percent non-Federal cost share for 
periodic renourishment.
    In addition, beach nourishment study phases started since fiscal 
year 1995 have not received budgetary support until now. With the 
policy change, this restriction has been lifted. Project reports will 
recommend the same new cost sharing formula for the resulting projects. 
Altogether, the budget provides $82 million for beach nourishment 
projects.
Recreation User Fees
    Recreation user fees will be increased by $10 million, to an 
estimated $44 million per year. This is the first step of a 4-year 
effort to increase recreation user fee receipts by a total of $25 
million per year. All of the increase in fees will be made available to 
the Corps of Engineers, without further appropriation, for operation, 
maintenance, and improvement of Corps recreation facilities. A portion 
of these increases will be accomplished by increasing day use fees, 
camping fees, annual pass fees, and special use permit fees under 
existing authority. For the other portion of the increases, we plan to 
transmit proposed legislation to Congress to authorize certain changes 
in current fee collection authorities.
General Investigations
    The budget for the Civil Works study program is $130 million. This 
funding level is intended to slow the growth of the ongoing 
construction backlog and avoid unrealistic funding expectations among 
non-Federal project sponsors. Cost-sharing sponsors, who are being 
asked to invest in these studies, expect timely construction, once 
studies and design are completed and the projects are authorized.
    No project-specific new study starts are included in the budget. 
However, policy-consistent studies that are under way will continue to 
move seamlessly from the reconnaissance phase to the feasibility phase 
and from the feasibility phase to preconstruction engineering and 
design, as they receive the necessary levels of review and approval 
within the Corps and the Army.
    The budget proposes two new national studies that will provide 
information needed by the Army and the Chief of Engineers to assess 
potential changes in Civil Works policies and procedures. The first of 
these new studies was authorized in Section 223 of the Water Resources 
Development Act of 2000 and involves a Project Monitoring Program to 
monitor the economic and environmental results of up to 5 projects 
constructed by the Corps. The budget includes $100,000 to initiate the 
monitoring program.
    The second new national study, a National Shoreline Study, was 
authorized by Section 215 of the Water Resources Development Act of 
1999 and will assess the extent, causes, and impacts of shoreline 
erosion on the coastal shores of the United States. The budget includes 
$300,000 to initiate this study.
    A number of continuing studies focus on basin-wide solutions to 
interrelated water resources problems, where the Corps of Engineers can 
be especially effective as an integrator of multi-agency efforts. These 
studies include the comprehensive studies initiated in fiscal year 2001 
for the Rio Grande River Basin, the White River Basin, and the 
Yellowstone River Basin.
    Coordination, technical assistance, and research activities also 
will be continued. Ongoing coordination of Federal estuary management 
activities will include funds to enable Army participation in the 
National Estuaries Council.
Construction, General
    The fiscal year 2002 budget for the Civil Works Construction, 
General program is $1.324 billion. Of the total, $61 million would be 
derived from the Inland Waterways Trust Fund and $9 million would be 
derived from the Harbor Maintenance Trust Fund.
    Funds are included for continuing projects that are consistent with 
established policies, including congressional adds that have completed 
Administration review and are policy consistent. No funds are included 
to initiate construction of new specifically authorized and funded 
projects, new projects funded in the Dredged Material Disposal Facility 
Program, or new projects under the Continuing Authorities Program. A 
number of projects added to the construction program in fiscal year 
2001 have not completed Administration review and, thus, are not known 
to be policy-consistent. Where a project report is being prepared 
during fiscal year 2001 and additional funds are needed in fiscal year 
2002 to complete the project report, the fiscal year 2002 budget 
includes the needed funds.
    The budget emphasizes the continuing, multi-agency efforts to 
restore the South Florida and Everglades ecosystem and to mitigate the 
impacts of projects on the Columbia and Snake Rivers on threatened and 
endangered salmon species.
    $139 million is budgeted for the South Florida and Everglades 
program, including $28 million for the Comprehensive Everglades 
Restoration program authorized in Title VI of the Water Resources 
Development Act of 2000, $65 million for other elements of the Central 
and South Florida project, $26 million for the Kissimmee River 
restoration, and $20 million for critical restoration projects.
    $81 million is budgeted for the salmon impact mitigation program. 
These funds are needed to comply with Biological Opinions issued by the 
National Marine Fisheries Service and the U.S. Fish and Wildlife 
Service under the Endangered Species Act, while continuing to operate 
the projects for authorized flood control, navigation, and 
hydroelectric power purposes. Potentially conflicting requirements of 
the Endangered Species Act and the Clean Water Act also must be 
reconciled.
    The budget provides $88 million for planning, design, and 
construction of projects under the Continuing Authorities Program. 
These are small projects for flood damage reduction, navigation, beach 
erosion control, shore and streambank protection, navigation project 
impact mitigation, clearing and snagging, aquatic ecosystem 
restoration, beneficial uses of dredged material, and project 
modifications for improvement of the environment.
Flood Control, Mississippi River and Tributaries
    The budget includes $280 million for the Mississippi River and 
Tributaries program. The budget targets funds to high priority flood 
damage reduction projects, which are on the mainstem of the Mississippi 
River and in the Atchafalaya River Basin, Louisiana.
Operation and Maintenance, General
    The overall budget for the Operation and Maintenance, General, 
account is $1.745 billion. Of this amount, $666 million would be 
derived from the Harbor Maintenance Trust Fund and $29 million would be 
derived from Special Recreation User Fees. In addition to these funds, 
operation and maintenance of hydropower facilities in the Pacific 
Northwest will be directly financed by a transfer of approximately $114 
million from Bonneville Power Administration revenues, pursuant to an 
agreement signed 4 years ago. Among port and harbor and inland waterway 
projects, recreational shallow-draft harbors and low commercial-use 
inland waterway segments are de-emphasized so that scarce resources can 
be available for navigation facilities with higher commercial use, as 
well as for other project purposes.
    Operation and maintenance funds for shallow draft harbors are 
limited to $47 million. These are harbors that have authorized depths 
of 14 feet or less. Among shallow draft harbors, the subsistence 
harbors for isolated communities and the harbors that involve higher 
use for commercial cargo and commercial fishing are emphasized, while 
the harbors that are essentially recreational in nature are de-
emphasized. The budget includes $42 million for operation of low 
commercial-use inland waterways, that is, inland waterways with less 
than 1 billion ton-miles of traffic per year. Funds for maintenance of 
low commercial-use inland waterways are limited to $25 million for 
maintenance dredging, and the dredging funds are targeted at the 
waterway segments with relatively higher commercial use. No funds are 
requested for structural maintenance on the low-commercial use inland 
waterways.
    As always, funds will be reprogrammed as necessary for emergencies, 
such as to protect human health and safety, to perform emergency 
repairs, or to perform emergency dredging of shoaled-in waterways.
Regulatory Program
    The budget for the Regulatory Program is $128 million, an increase 
of $3 million over the fiscal year 2001 amount for labor cost 
increases. These funds are needed to help maintain program performance, 
protect important aquatic resources, and support partnerships with 
States and local communities through watershed planning efforts. These 
funds will be used for permit evaluation, enforcement, administrative 
appeals, and studies and environmental impact statements, in order to 
provide effective regulation of the Nation's waters and wetlands.
Formerly Utilized Sites Remedial Action Program (FUSRAP)
    FUSRAP is an environmental cleanup program that was transferred by 
Congress from the Department of Energy to the Army in fiscal year 1998. 
We are continuing to implement needed clean-up at contaminated sites. 
This year's budget includes $140 million in new appropriations for this 
program.
Flood Control and Coastal Emergencies
    Funding that remains available from prior year appropriations is 
sufficient to fund normal program activities during 2002. In order to 
finance responses to emergencies that may arise during the year, the 
Administration is proposing a governmentwide emergency reserve fund. 
Civil Works is one of the programs that will be able to tap this 
proposed nationwide emergency reserve fund, in the event that response 
costs for qualifying emergencies exceed available funds.
General Expenses
    Funds budgeted for the General Expenses program are $153 million. 
These funds will be used for executive management and direction 
activities of the Corps of Engineers headquarters, the Corps Division 
headquarters, and related support organizations. Among these funds, 
$1.8 million will be used to continue the management study authorized 
by section 216 of the Water Resources Development Act of 2000. This 
study, which is being initiated in fiscal year 2001, is examining Corps 
of Engineers planning and review procedures.
Harbor Maintenance Trust Fund
    The President's fiscal year 2002 budget proposes that $675 million 
be derived from the Harbor Maintenance Trust Fund, including $666 
million in the Operation and Maintenance, General program for harbor 
maintenance, and $9 million in the Construction, General program for 
the addition of dredged material disposal facilities at existing 
projects.
                 government performance and results act
    A performance plan is in preparation for the Army Civil Works 
program, based on the fiscal year 2002 budget. After completion of 
Administration review, the plan will be submitted to the Congress, as 
required by the Government Performance and Results Act of 1993.
    In fiscal year 2002, we plan to maintain high use commercial 
navigation facilities in a fully operational state at least 90 percent 
of the time, maintain flood damage reduction facilities in a fully 
operational state at least 95 percent of the time, and achieve ``no net 
loss'' of wetlands by creating, enhancing, and restoring wetlands 
functions and values that are comparable to those lost.
                      project planning and review
    The Army is working closely with the Chief of Engineers and others 
to identify opportunities to strengthen the Civil Works planning 
process. In addition, as indicated in the President's Budget Blueprint, 
the Army is considering options for strengthening the ability of the 
Office of the Assistant Secretary for Civil Works to ensure policy 
oversight of project planning. Already, General Flowers and I have 
restored the past practice of concurrent, vertical involvement at all 
organizational levels--including the Office of the Assistant 
Secretary--at critical steps in the formulation of studies.
                               conclusion
    In summary, the President's fiscal year 2002 budget for the Army 
Civil Works program is a solid one. It continues support to ongoing 
work, emphasizes primary missions and applies resources to areas likely 
to have the greatest national economic benefit. The Army Civil Works 
program is a wise investment in the Nation's future.
    Thank you.

Table A.--FY 2002 Direct Program-President's Program Funding, by Account
                               and Source
------------------------------------------------------------------------
                                                           Amount ($)
------------------------------------------------------------------------
Requested Discretionary Appropriations:
General Investigations...............................        130,000,000
Construction, General................................  \1\ 1,324,000,000
Operation and Maintenance, General...................  \2\ 1,745,000,000
Regulatory Program...................................        128,000,000
Flood Control, Mississipppi River & Tributaries......        280,000,000
General Expenses.....................................        153,000,000
FUSRAP...............................................        140,000,000
                                                      ------------------
    Total Appropriation Request......................      3,900,000,000
Sources of Appropriations:
General Fund.........................................    (3,135,200,000)
Harbor Maintenance Trust Fund (gross)................      (675,000,000)
Inland Waterway Trust Fund...........................       (61,000,000)
Special Recreation User Fees.........................       (28,800,000)
                                                      ------------------
    Total Appropriation Request......................      3,900,000,000
Additiional New Resources:
Rivers and Harbors Contributed Funds.................    \3\ 315,000,000
Bonneville Power Authority Transfer..................        114,000,000
Coastal Wetlands Restoration Trust...................     \4\ 59,976,000
Permanent Appropriations.............................     \5\ 15,992,000
San Gabriel Basin Restoration Fund...................      \6\ 8,615,000
                                                      ------------------
    Total Program Funding............................      4,413,583,000
------------------------------------------------------------------------
\1\ Includes $61,000,000 from the Inland Waterways Trust Fund and
  $9,000,000 from the Harbor Maintenance Trust Fund.
\2\ Includes $666,000,000 from the Harbor Maintenance Trust Fund and
  $28,800,000 in Special Recreation User Fees receipts.
\3\ Cost-sharing contributions required by law for budgeted work and
  work financed 100 percent by non-Federal interests.
\4\ Transferred from the Sport Fish Restoration Account of the Aquatic
  Resources Trust Fund for planning, protection, and restoration of
  coastal wetlands in the State of Louisiana.
\5\ Included $8,000,000 in rent of project lands, $92,000 in fees for
  use of a Hydraulic Mining Debris Reservoir in California for other
  purposes, and $7,900,000 in license fees.
\6\ Estimated non-Federeal contribution. In addition, a portion of
  Federal funds appropriated in fiscal year 2001 (estimated at
  $16,000,000) would become available in fiscal year 2002 as non-Federal
  contributions are provided.

                               __________
Statement of Lt. Gen. Robert B. Flowers, Chief of Engineers, U.S. Army 
                           Corps of Engineers
                              introduction
    Mr. Chairman and members of the subcommittee: I am honored to be 
testifying to your subcommittee today, along with the Deputy Assistant 
Secretary of the Army (Management and Budget), Ms. Claudia L. Tornblom, 
on the President's fiscal year 2002 budget for the United States Army 
Corps of Engineers Civil Works Program. I am proud of my association 
with this program, first as a field engineer and research project 
manager for the Portland District, then as commander of the Mississippi 
River Valley Division, and, since October, as Chief of Engineers. I am 
especially honored to have the opportunity to lead the Corps through 
its current challenges to serve this great Nation in meeting its many 
water and related land resources management needs.
    Thanks to this subcommittee's support, the Civil Works Program 
remains strong, balanced, responsive, and highly productive. I look 
forward to working with you in furtherance of our partnership in 
prosecuting this fine program, so broadly beneficial to our Nation. In 
this statement, I will focus on significant challenges for the Nation 
in water and related land resources management. I will say just a few 
words about the budget, then devote the balance of my testimony to an 
assessment of national water and related land resources management 
needs.
    Accordingly, my statement covers just these two topics:
    <bullet> Summary of the Civil Works Program Budget, and
    <bullet> Assessing the Nation's Needs for Water and Related Land 
Resources Management.
                 summary of civil works program budget
Introduction
    This is a good budget. New funding for the Civil Works Program, 
including the Direct and Reimbursed programs, is expected to approach 
$5.11 billion.
    As shown in Table 1, Direct Program funding, including 
discretionary and mandatory amounts appropriated directly to the Corps, 
totals $4.41 billion. Discretionary amounts total $3.90 billion; 
additional amounts total $514 million. Reimbursed Program funding is 
projected to be $700 million.
Direct Program
    The proposed budget reflects the Administration's commitment to 
continued sound development and management of the Nation's water and 
related land resources. It provides for continued efficient operation 
of the Nation's navigation, flood protection, and other water resource 
management infrastructure, fair regulation of the Nation's wetlands, 
and restoration of the Nation's important environmental resources, such 
as the Florida Everglades. It is consistent with the President's 
overall domestic priorities and continued commitment to a balanced 
budget. The budget provides for continued funding of nearly all studies 
and projects underway, including many started in fiscal year 2001. It 
also provides for funding of two new starts under the General 
Investigations (GI) program.
Reimbursed Program
    Through the Interagency and Intergovernmental Support Program we 
help non-DOD Federal agencies, States, and other countries with timely, 
cost-effective implementation of their programs, while maintaining and 
enhancing capabilities for execution of our Civil and Military Program 
missions. These customers rely on our extensive capabilities, 
experience, and successful track record. The work is principally 
technical oversight and management of engineering, environmental, and 
construction contracts performed by private sector firms, and is fully 
funded by the customers.
    Currently, we provide reimbursable support for about 60 other 
Federal agencies and several State and local governments. Total 
reimbursement for such work in fiscal year 2002 is projected to be $700 
million. The largest share--nearly $270 million--is expected from the 
Environmental Protection Agency (EPA) for cleanup of wastes at numerous 
sites under its Superfund program. 90 percent of Reimbursed Program 
funding is provided by other Federal agencies.
        assessing the nation's needs for water and related land 
                          resources management
Introduction
    Water and related land resources play major roles in how Americans 
live and work. There are many competing and conflicting demands on use 
of these limited resources. When, where, how, to what extent, by whom, 
and by what means should the demands be addressed? Over the years, the 
Corps has employed various means to gather information for use in 
defining and understanding national water and related land resource 
management issues. Recently, it has employed ``Listening Sessions'' to 
improve the accuracy, currency, and relevancy of its information.
Initial Assessment of Circumstances
    Last year, through assessment of trends and results of research, 
literature searches, and consultations with selected water and related 
land resource management experts, we concluded that the Nation is 
facing important water and related land resources management challenges 
with serious implications. We made the following observations and 
interpretations:
    <bullet> As the world's climate changes, changing hydrology and 
water distribution and, in turn, environmental and socioeconomic 
conditions, we must anticipate need for changes in and additions to the 
Nation's water and related land resources management facilities, 
systems, and practices, and effect such changes as opportunely as 
feasible.
    <bullet> As global markets expand, international commerce will 
demand more efficient domestic ports and harbors, and improved vessel 
and intermodal cargo handling facilities.
    <bullet> With many properties and major populations located in the 
Nation's floodplains, flooding will continue to threaten national 
welfare. Moreover, as pressures continue to develop, flood-prone lands 
and natural flood management systems will be compromised, and the 
threat of flood damage will increase.
    <bullet> Ongoing migration of the Nation's population to coastal 
plains and coasts, and attendant property development, will increase 
risks of loss from coastal erosion, floods, and hurricanes.
    <bullet> The ongoing migration to coastal plains and coasts will 
put increasing pressure on coastal habitat, especially wetlands, and 
other fish and wildlife ecosystems.
    <bullet> Through Water Resources Development Acts of 1996 and 1999 
(WRDA 96 and WRDA 99), the American public placed national 
environmental health in the forefront of social priorities. These acts, 
providing additional authorities to the Corps for ecosystem and 
watershed protection and restoration, increase emphasis on national 
need for ecosystem restoration, wetlands management, and nonstructural 
floodplain management.
    <bullet> As the Nation's water and related land management 
infrastructure ages, it must be rehabilitated, modified, replaced, or 
removed.
    <bullet> As the Nation's population grows, there will be growing 
conflicts among multiple interests within watersheds wanting to use 
available water and related lands for diverse needs.
    <bullet> The American public has a strong and growing interest in 
downsizing the Federal Government and, in turn, its workforce. In light 
of this, ongoing outsourcing and privatizing for accomplishment of 
government work, including engineering, will increase. An implication 
of this is that the nonFederal sector, comprising States and private 
interests will have to share greater responsibility in water and 
related land resources management.
Challenges Based on Listening Sessions
    In light of these observations, particularly, the last one, the 
Corps invited Americans to ``Join the Dialogue'' about management of 
the Nation's water and related land resources.
    The purpose of the dialog was twofold, specifically, to provide 
opportunities for citizens to:
    <bullet> identify and discuss water and related land resources 
management needs, opportunities, and problems impacting their lives and 
future sustainability of their communities and environments; and,
    <bullet> express what they believe the Federal role should be in 
addressing these issues.
    This dialog was carried on from June through November 2000 in 16 
listening sessions--14 regional and two national--at locations across 
the country. A cross-section of stakeholders, totaling nearly 1300, 
participated in the sessions. This included representatives from 
Federal, State, and local agencies, tribes, environmental 
organizations, port authorities, private companies, legal 
professionals, farmers, navigators, journalists, and homeowners. The 
sessions were open to the public and comprised a combination of small 
group and plenary sessions. Corps participation generally was limited 
to note-taking. Consensus on water resources issues was not sought.
    Detailed reports on each session are available at the website of 
our Institute for Water Resources. We invite you to read them, 
particularly our summary report: America's Water Resource Challenges 
for the 21st Century: Summary Report on Identified Water Resource 
Challenges and Water Challenge Areas. Views expressed in this document, 
although not reflecting official policies or positions of the Corps, 
nevertheless, and importantly, accurately reflect views of the 
participants. This information will be used in dialog on water and 
related land resources challenges in the future. Significantly, we have 
already used it in developing goals and strategies for our Civil Works 
Program Strategic Plan.
    Participants in the listening sessions identified more than 3,400 
water and related land resources management issues and grouped them 
into sets of challenges, forming 30 to 50 sets at each regional 
session, and 542 sets all told. We then distilled these sets into 18 
for the above-cited report, and, ultimately, into 10.
    Solutions to these challenge sets are complex and will require the 
concerted effort of many government organizations, at all levels, 
working for the collective good of the Nation. Moreover, optimal 
solutions will require involvement and participation of all Americans. 
The more, the better.
                               conclusion
    The President's Budget for the Corps of Engineers is a good one. We 
must continue to find ways to reduce our costs and shift more of those 
remaining to direct beneficiaries of our services. Meanwhile, we will 
do our very best to execute the Civil Works Program for maximum benefit 
to the Nation.
    Thank you Mr. Chairman and members of the committee. This concludes 
my statement.

     Table 1.--Department of the Army Corps of Engineers Civil Works
                     [FY02 Direct Program--Funding]
                    (New obligation authority in $K)
------------------------------------------------------------------------
                                                Fiscal Year
                                  --------------------------------------
      Source/Program/Account                      Actual/
                                    Actual 00    Assumed 1/   Requested
                                                   01 \1\         02
------------------------------------------------------------------------
APPROPRIATION:
Discretionary and Related
 Additional (Defense):
Formerly Utilized Sites Remedial      $150,000     $140,000     $140,000
 Action Program (FUSRAP).........
Domestic:
General Investigations/General
 Fund............................
  Appropriation..................      164,497      160,520      129,947
  Receipts.......................           68           66           53
                                  --------------------------------------
    Total........................      164,565      160,586      130,000
Construction General/General Fund
  Appropriation..................    1,259,362    1,566,409    1,253,975
  Receipts.......................           26           32           25
Harbor Maintenance Trust Fund....        9,000        5,000        9,000
Inland Waterway Trust Fund.......      104,618      119,724       61,000
San Gabriel Basin Groundwater                0       25,000            0
 Restoration, California.........
                                  --------------------------------------
    Total........................    1,373,006    1,716,165    1,324,000
Operation and Maintenance,
 General (General Fund)..........
  Appropriation..................    1,106,596    1,128,114    1,035,640
  Receipts.......................       15,483       15,835       14,560
Harbor Maintenance Trust Fund....      701,000      725,000      666,000
Special Recreation User Fees Fund       32,539       28,826       28,800
                                  --------------------------------------
    Total........................    1,855,618    1,897,775    1,745,000
Flood Control, Mississippi River
 and Tributaries (General Fund)..
  Appropriation..................      309,326      350,356      279,919
  Receipts.......................           90          102           81
                                  --------------------------------------
    Total........................      309,416      350,458      280,000
Regulatory Program...............      117,000      124,725      128,000
General Expenses.................      149,500      151,666      153,000
Flood Control and Coastal                    0            0            0
 Emergencies.....................
                                  --------------------------------------
    Total........................    3,969,105    4,401,375    3,760,000
        Total Defense and           14,119,105    4,541,375    3,900,000
         Domestic................
                                  --------------------------------------
Additional, Only/(Defense)
Formerly Utilized Sites Remedial        20,000
 Action Program (FUSRAP).........
Domestic:
Permanent Appropriations.........       14,530       15,408       15,992
Coastal Wetlands Restoration
 Trust Fund (CWRTF)..............
  Corps..........................          679          679       13,500
  Others.........................       52,228       51,980       46,476
                                  --------------------------------------
    Total........................       52,907       52,659       59,976
Rivers and Harbors Contributions.      318,705      376,118      315,000
Bonneville Power Administration        107,000      108,000      114,000
 Transfer........................
South Dakota Terrestrial Wildlife            0            0            0
 Restoration Trust Fund..........
San Gabriel Basin Restoration                0            0            0
 Fund............................
Washington Aqueduct (borrowing               0            0            0
 authority, excluded)............
                                  --------------------------------------
    Total........................      493,142      552,185      513,583
Total Defense and Domestic:......      513,142      552,185      513,583
                                  --------------------------------------
    TOTAL........................    4,632,247    5,093,560    4,413,583
------------------------------------------------------------------------
\1\ Discretionary and related additional is actual; additional, only, is
  assumed.

                               __________
 Responses by Lt. Gen. Robert B. Flowers to Additional Questions from 
                             Senator Inhofe
                              tuloch rule
    Question 1. Has the Corps considered the potential impact of this 
rule in extractive industries, such as those involved in aggregate 
mining? If so, how is the regulation of aggregate mining, which is 
essentially an extractive industry, under section 404 consistent with 
the holding of the Court of Appeals in National Mining Association v. 
Corps of Engineers, 145 F. 3d 1399, 1403 (DC Cir. 1998), that section 
404 does not allow the regulation of activities involving the ``net 
withdrawal'' of material from the waters of the United States?
    Response. Most mining activities will continue to be regulated. 
Examples of those activities that involve the discharge of dredged or 
fill material include the construction of roads, fill pads, dikes, 
berms, and containment ponds. Where there is more than incidental 
fallback the actual extraction of the material also would require a 
permit.

    Question 2. Has the Corps considered the costs of gathering the 
``project-specific evidence'' that the activity ``results in only 
incidental fallback?''
    Response. The gathering of ``project-specific evidence'' normally 
will not be required unless the applicant assets that the activity will 
not result in only incidental fallback. Generally, the ``project-
specific evidence'' will involve a description of the actual physical 
methods of removal and disposal of the excavated material, the location 
of its disposal, and any other information that would demonstrate 
whether the activity will result in only incidental fallback. At this 
time, we have no reliable basis for estimating any costs that might be 
incurred for gathering such information, but we do not believe that 
this requirement would pose a large burden to any applicant.

    Question 3. The rule says that it qualifies as a ``significant 
regulatory action'' under Executive Order 12866 only because it 
``raises novel legal or policy issues arising out of legal mandates.'' 
To what extent did the Corps conduct any economic impact analysis in 
order to determine that the impact of the rule does not exceed the $100 
million threshold under that Executive Order?
    Response. Although the Corps generally considered the effects of 
this rule on applicants and on the environment, we did not conduct a 
detailed economic analysis. This determination was based upon the fact 
that the rule does not alter or enlarge Clean Water Act jurisdiction. 
Its purpose is to clarify which activities the Corps and EPA view as 
requiring prior approval in the form of a Department of the Army 
permit, pursuant to the Clean Water Act.

    Question 4. What type of ``project-specific evidence'' would the 
Corps consider sufficient to prove that a proposed activity will not 
involve ``incidental fallback?''
    Response. As discussed earlier, this ``project-specific evidence'' 
generally will involve a description of the actual physical methods of 
removal and disposal of the excavated material, the location of its 
disposal, and any other information that would demonstrate whether the 
activity will result in only incidental fallback.

    Question 5. Will the Corps eventually use field data to exempt 
certain activities?
    Response. An ``exemption'' is not possible. However, the Corps 
district offices will consider data for certain classes of activities 
to determine whether there is a sufficient basis to conclude that no 
permit would be required for those types of activities.

    Question 6. Will the Corps issued field guidance? If so, when?
    Response. The Corps Headquarters, after coordination with the 
Office of the Assistant Secretary of the Army for Civil Works, will 
issue working guidance to the field. The guidance is under development; 
we have not yet established a timetable for implementation.

    Question 7. The Corps states that is has dropped the ``rebuttable 
presumption'' concept. Please explain the difference between the 
``rebuttable presumption'' in the proposed rule and the language in the 
final rule where the Corps states that it ``regards the use of the 
mechanized earth moving equipment to conduct land clearing . . . 
instream mining . . . that results in discharge unless project-specific 
evidence shows that the activity results in ``incidental fallback.''
    Response. The proposed ``rebuttable presumption concept'' would 
have provided that any excavation would result in a discharge of 
dredges or fill material, unless the landowner proved otherwise. In 
other words, under the proposal of providing that the discharges are 
incidental, although the rule states that the Corps and EPA generally 
regard excavation as a discharge of dredged material, unless case-
specific information indicates that there will be only incidental 
fallback, the Government has the burden of proving that the discharges 
are more than incidental.

    Question 8. Doesn't this language still place the burden on the 
regulated party to demonstrate that the activity will not result in a 
discharge? If not, please explain.
    Response. In most cases, the permit applicants provide, as part of 
their application or notification packages, sufficient information for 
the Corps to determine whether a particular project would result in 
more than incidental fallback. In some cases, the Corps may need to 
request additional information.

    Question 9. The final rule states that the Corps may ``rely on any 
available information'' as well as ``site visits or field observations 
during and after project execution'' to determine if a unpermitted 
discharge has occurred. Has the Corps considered the risk to the 
regulated community of applying such a standard? Given the vagueness of 
the rule, explain how this standard is consistent with notices of due 
process?
    Response. Case-by-case determinations have been, and will continue 
to be, made regarding whether an activity requires a Department of the 
Army permit. The Corps has great experience in the administration of 
the regulatory program, and our staff have been making decisions 
regarding incidental fallback for some time. I am confident that 
overall sound decisions are being made. However, as noted in response 
to a previous question, we are in the process of developing clarifying 
guidance.

    Question 10. How is the definition of this rule more consistent 
with the Clean Water Act than was the original Tulloch Rule?
    Response. The new definition clarifies the definition of discharge 
of dredged material and also reflects the relevant court decisions on 
what would not require a Department of the Army permit.

    Question 11. As discussed in the National Mining Association 
decision, how does the rule meet the intent of Congress that ``either a 
temporal or geographic separation between excavation and disposal'' is 
necessary in order to meet the requirements under section 404(a) that 
dredged material be discharged at ``specified disposal sites?''
    Response. The temporal separation can be fairly immediate, as in 
the case of side casting. In a pure excavation activity, the geographic 
separation would be off-site or to waters of the United States that 
have not been excavated.
         guadalupe river flood control project at san jose, ca
    Question 12. The President's budget proposes $4 million for the 
Guadalupe River flood control project in Sane Jose, CA. It has been 
suggested that the Corps will reprogram an additional $8 million from 
other projects, which are not ready for construction to bring the total 
for the Guadalupe River project to $12 million. Is this accurate?
    Response. The Corps will consider reprogramming funds based on 
conditions as they exist during the year.
                   montgomery point lock and dam, ar
    Question 13. Although we discussed Montgomery Point Lock and Dam 
(MPLD) during the hearing, I would appreciate it if you could provide 
the same information in writing. Specifically: What is the dollar 
amount needed to keep the work on schedule?
    Response. The budget amount is $18 million. Subject to the usual 
qualifications on capabilities, one capability is $60 million. The 
schedule will be adjusted to reflect the availability of funds.

         [``Although project and study capabilities reflect the 
        readiness of the work for accomplishment, they are in 
        competition for available funds and manpower Army-wide. In this 
        context, the fiscal year 2002 capability amounts shown consider 
        each project or study PY itself without reference to the rest 
        of the program. However, it is emphasis that the total amount 
        proposed for the Army's Civil Works Program in the President's 
        budget for fiscal year 2001 is the appropriate amount 
        consistent with the Administration's assessment of national 
        priorities for Federal investments. In addition, the total 
        amount proposed for the Army's Civil Works Program in the 
        President's budget is the maximum that can be efficiently used. 
        Therefore, while we could utilize additional funds on 
        individual projects and studies, offsetting reductions would be 
        required in order to maintain our overall budgetary 
        objectives.''
         [Hereafter, this statement is referred to as ``the usual 
        qualifications.'']

    Question 14. If there is a shortfall, can the balance needed be 
made available to the Little Rock District through reprogramming?
    Response. If there is a shortfall, we expect to be able to 
reprogram most of the balance by restoring funds previously 
reprogrammed from the project.

    Question 15. What is the Corps construction capability in fiscal 
year 2002 for MPLD?
    Response. Sir, subject to the usual qualifications on capabilities, 
the fiscal year 2002 construction capability is $60 million.

    Question 16. What impact will $18 million proposed in the 
President's budget request for FT02 have on construction--how much 
extra time will be required to finish it and at what estimated cost?
    Response. The balance to complete after fiscal year 2001 is $84 
million. The scheduled completion date, without reprogramming, is 
December 2005. The maximum rate at which we can spend funds efficiently 
would result in a completion date of December 2003. This can be 
attained through additional appropriations, reprogramming, or a 
combination of the two. Accelerating the schedule by the entire 2 years 
could reduce budgetary costs by $5 million (which reflects the 
estimated impact of inflation.)
                                 ______
                                 
 Responses by Lt. Gen. Robert B. Flowers to Additional Questions from 
                           Senator Ron Wyden
                     columbia river fish mitigation
    Question 1. At a funding level of $81 million for the Columbia 
River Juvenile Fish Mitigation Program, will the Army Corps be able to 
meet all of the requirements in the National Marine Fisheries Service 
Biological Opinion? If not, how much is needed to meet these 
requirements and what are likely impacts if the necessary funding is 
not provided?
    Response. Not all measures called for in the Biological Opinion 
(Biop) will be undertaken in fiscal year 2002 at a funding level of $81 
million. The Corps has expressed a capability of $110 million, which 
would allow us to address additional measures. The overall project 
currently consists of approximately sixty (60) separately executed 
measures established in response to prior and new biological opinions. 
Prioritization of the list of measures is coordinated with regional, 
Federal, State and tribal interests in anticipation that actual annual 
appropriations will not be sufficient to address all of the measures in 
a given fiscal year and some measures will need to be deferred. The new 
Biop provides ten (10) years to meet performance goals for improved 
juvenile and adult survival for the ESA listed stocks. The additional 
amount would assist in completing the project within this timeframe. 
Increased funding levels will be required in the future in order to 
meet the requirements within the 10-year performance plan.
                       willamette basin projects
    Question 2. The Administration's budget request for the Willamette 
Valley operating projects is less than requested last year. Is this 
year's request adequate to fund all ongoing operations and maintenance 
requirements and address new Endangered Species Act requirements for 
the Willamette Basin?
    Response. Subject to the usual qualifications regarding 
capabilities, we have the capability to use another $1,000,000, in 
addition to the budget request, to carry out additional actions 
associated with the biological opinions that address the Endangered 
Species Act for the Willamette Valley operating projects. That 
additional $1,000,000 would need to be spread among the Fern Ridge, 
Cougar, Detriot-Big Cliff, Green Peter-Foster, and Lookout Point-Dexter 
projects.
                 columbia river and tillamook estuaries
    Question 3. No funds have been included in the Administration's 
budget request to begin work on the projects authorized by section 536 
of the Water Resources Development Act of 2000. Doesn't the Corps need 
to have funding in order to initiate these important projects in the 
Columbia River and Tillamook Estuaries in fiscal year 2002? And, if so, 
what is the funding level needed to proceed with work in these 
estuaries?
    Response. Yes, the Corps requires funding in order if we are to 
initiate projects in the Columbia River and Tillamook estuaries in 
fiscal year 2002 under section 536 of WRDA 2000. The Corps has stated a 
capability of $7.5 million to collaborate with stakeholders, identify 
and prioritize restoration actions and identify non-Federal sponsors to 
cost share, plan, design and construct restoration projects.
                  columbia river channel improvements
    Question 4. No funds have been included in the Administration's 
budget request to continue the consultation and planning for the 
Columbia River Channel Improvements Project. What is the funding level 
needed to continue the consultation and planning for this project?
    Response. We are using funds appropriated for fiscal year 2001 to 
continue the consultation and planning for this project. However, we 
could use an additional $500,000 in fiscal year 2002 to accelerate this 
effort. This amount has been expressed as capability for fiscal year 
2002.
                         tillamook bay and bar
    Question 5. Only $14,000 was included in the Administration's 
budget request for operation and maintenance work on the Tillamook Bay 
and Bar. Tillamook County and the Port of Garibaldi estimate $550,000 
is needed to repair and restore the jetties, which were last repaired 
in 1991 and have since experienced serious erosion. In light of this 
erosion problem, which has worsened since the Corps began preparing its 
budget request for fiscal year 2002, why was the Administration's 
request only $14,000?
    What level of funding would be required in fiscal year 2002 to 
enable the Corps to complete a Major Maintenance Report and Plans and 
Specifications for the restoration and repair of the North and South 
Jetties on Tillamook Bay?
    Response. The Corps has not developed as estimate for repairing and 
restoring the jetties, but the amount mentioned in the question, 
$550,000, might cover the cost of the major maintenance report and the 
plans and specifications. Our next step would be to initiate the Major 
Maintenance Report. Subject to the usual qualifications regarding 
capabilities, we have the capability to use up to $200,000 to prepare a 
major maintenance report for repairing the north and south jetties at 
Tillamook Bay and Bar. After completion of a favorable report, we would 
prepare the plans and specifications in a future fiscal year. Due to 
overall budget constraints, we could not include the funds necessary 
for the Major Maintenance Report in the President's fiscal year 2002 
budget.
                  tillamook bay and wilamette estuary
    Question 6. No funds have been included in the Administration's 
budget request for the ``Challenge 21'' program authorized by section 
212 of the Water Resources Development Act of 1999. This law designated 
Tillamook County and the Willamette Basin in Oregon as priority areas 
for flood damage reduction and conservation projects under this 
program. Doesn't the Corps need to have funding in order to initiate 
these important projects in Tillamook County and the Willamette Basin 
in fiscal year 2002? And, if so, what is the funding level needed to 
proceed with work in these areas?
    Response. A General Investigations study for Tillamook Bay and 
Estuary is approved and the ongoing cost-shared feasibility study began 
in August 1999. $500,000 is already included in the fiscal year 2002 
President's budget. No additional capability has been stated. $170,000 
is included in the fiscal year 2002 President's budget, under General 
Investigations, for the Willamette River Basin Floodplain Restoration 
Study. This level of funding is adequate to initiate Phase I of the 
feasibility study for the Willamette Basin. Additional funding under 
section 212 of WRDA is not required in fiscal year 2002.
                          environmental values
    Question 7. The Corps has testified before Congress that the agency 
is concerned about the environmental impacts of proposed projects and 
project operations. But a 2001 National Academy of Sciences (NAS) panel 
found that the Corps' analysis underestimates the environmental impacts 
of its projects. How will the Corps ensure that environmental impacts 
of its projects are fully considered and addressed in its planning and 
implementation of projects?
    Response. The Corps of Engineers routinely includes the full 
integration of environmental values in all our planning processes. 
First, all planning teams are consistently and conscientiously 
comprised of a truly multidisciplinary planning team that includes 
members representing ecological/biological/and environmental 
disciplines, staff formally trained in cultural, historical and 
archeological disciplines, as well as engineers, economists and real 
estate experts. Further, in response to specific criteria provided in 
the Water Resources Council's ``Economic and Environmental Principle 
and Guidance for Water and Related Land Resources Implementation 
Studies,'' the Corps of Engineers has promulgated their own Planning 
Guidance Regulation that explicitly, and fully, includes strict 
planning criteria addressing proper and thorough consideration of all 
environmental values throughout the planning, project identification 
and implementation process. Finally, in response to compliance with the 
Council on Environmental Quality's ``Regulations for Implementing the 
Procedural Provisions of the National Environmental Policy Act 
(NEPA)'', the Corps rigorously, and simultaneously fully addresses 
those requirements for each and every planning effort, while at the 
same time being fully integrated with the study/planning process.
    It should also be noted that the Corps has several programs whose 
sold goal is to produce environmental values. These include section 
1135 (Modification of Existing Projects for the Improvement of the 
Environment), section 204 (Beneficial Use of Dredge Material), and 
section 206 (Aquatic Ecosystem Restoration), all under the Continuing 
Authorities Program. There is also the ecosystem restoration mission 
added as a separate mission by the Congress whose purpose is to plan 
ecosystem restoration projects for authorization.

    Question 8. The Corps recently testified before Congress that Corps 
projects seek to achieve both economic and environmental values. But 
the Corps' planning guidelines require the Corps to maximize economic 
benefits. And the recent NAS panel criticized the Corps for failing to 
update regulations to include environmental restoration as a project 
purpose and not providing guidance on including environmental 
improvements in project planning. How will the Corps address the NAS 
criticism and achieve its goal of maximizing both economic and 
environmental values?
    Response. The Corps has already expanded and revised its methods 
for evaluating environmental values during the formulation of its 
projects. Further, the Corps has numerous initiatives underway which 
are looking at better defining and evaluating environmental benefits 
and incorporating environmental sustainability into Corps projects.
    We continue to refine our benefit evaluation methodologies to keep 
up with advances in economic evaluation and environmental science. We 
have placed particular emphasis in our research program in looking at 
ways to measure and value environmental outputs. We have refined our 
planning processes to achieve better synergy between economic and 
environmental values. For example, in April of last year, we improved 
our planning guidance to clarify our ability to develop projects for 
environmental restoration.
    The Corps guidance for the conduct of feasibility studies provides 
the framework and criteria to be used in the evaluation of projects 
both in terms of costs and benefits, monetary and non-monetary. We are 
continually striving to improve our methodologies and processes for 
evaluating all alternatives and options. There are basic guidelines on 
methodologies and criteria for making determinations of appropriate 
factors for inclusion in different evaluations. These guidelines allow 
for the use of new, improved or different methodologies, but require 
validation of variations from proven techniques. The guidelines are 
also updated to assure that all alternatives are evaluated in an 
unbiased manner. We recently revised the guidelines on the methods to 
be used to calculate benefits for non-structural measures as well as 
revising and expanding our methods for evaluating environmental values.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  

                                <greek-d>

</pre></body></html>
